<html>
<title> - [H.A.S.C. No. 114-15] THE PRESIDENT'S PROPOSED AUTHORIZATION FOR USE OF MILITARY FORCE AGAINST ISIL AND U.S. POLICY, STRATEGY, AND POSTURE IN THE GREATER MIDDLE EAST</title>
<body><pre>[House Hearing, 114 Congress]
[From the U.S. Government Publishing Office]






                                
 
                         [H.A.S.C. No. 114-15]

            THE PRESIDENT'S PROPOSED AUTHORIZATION 
             FOR USE OF MILITARY FORCE AGAINST 
             ISIL AND U.S. POLICY, STRATEGY, AND 
             POSTURE IN THE GREATER MIDDLE EAST

                               __________

                      COMMITTEE ON ARMED SERVICES

                        HOUSE OF REPRESENTATIVES

                    ONE HUNDRED FOURTEENTH CONGRESS

                             FIRST SESSION

                               __________

                              HEARING HELD

                             MARCH 3, 2015

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]                                     

                                   ______

                         U.S. GOVERNMENT PUBLISHING OFFICE 

94-217                         WASHINGTON : 2015 
-----------------------------------------------------------------------
  For sale by the Superintendent of Documents, U.S. Government Publishing 
  Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; 
         DC area (202) 512-1800 Fax: (202) 512-2104 Mail: Stop IDCC, 
                          Washington, DC 20402-0001










                                     
                      COMMITTEE ON ARMED SERVICES
                    One Hundred Fourteenth Congress

             WILLIAM M. ``MAC'' THORNBERRY, Texas, Chairman

WALTER B. JONES, North Carolina      ADAM SMITH, Washington
J. RANDY FORBES, Virginia            LORETTA SANCHEZ, California
JEFF MILLER, Florida                 ROBERT A. BRADY, Pennsylvania
JOE WILSON, South Carolina           SUSAN A. DAVIS, California
FRANK A. LoBIONDO, New Jersey        JAMES R. LANGEVIN, Rhode Island
ROB BISHOP, Utah                     RICK LARSEN, Washington
MICHAEL R. TURNER, Ohio              JIM COOPER, Tennessee
JOHN KLINE, Minnesota                MADELEINE Z. BORDALLO, Guam
MIKE ROGERS, Alabama                 JOE COURTNEY, Connecticut
TRENT FRANKS, Arizona                NIKI TSONGAS, Massachusetts
BILL SHUSTER, Pennsylvania           JOHN GARAMENDI, California
K. MICHAEL CONAWAY, Texas            HENRY C. ``HANK'' JOHNSON, Jr., 
DOUG LAMBORN, Colorado                   Georgia
ROBERT J. WITTMAN, Virginia          JACKIE SPEIER, California
DUNCAN HUNTER, California            JOAQUIN CASTRO, Texas
JOHN FLEMING, Louisiana              TAMMY DUCKWORTH, Illinois
MIKE COFFMAN, Colorado               SCOTT H. PETERS, California
CHRISTOPHER P. GIBSON, New York      MARC A. VEASEY, Texas
VICKY HARTZLER, Missouri             TULSI GABBARD, Hawaii
JOSEPH J. HECK, Nevada               TIMOTHY J. WALZ, Minnesota
AUSTIN SCOTT, Georgia                BETO O'ROURKE, Texas
STEVEN M. PALAZZO, Mississippi       DONALD NORCROSS, New Jersey
MO BROOKS, Alabama                   RUBEN GALLEGO, Arizona
RICHARD B. NUGENT, Florida           MARK TAKAI, Hawaii
PAUL COOK, California                GWEN GRAHAM, Florida
JIM BRIDENSTINE, Oklahoma            BRAD ASHFORD, Nebraska
BRAD R. WENSTRUP, Ohio               SETH MOULTON, Massachusetts
JACKIE WALORSKI, Indiana             PETE AGUILAR, California
BRADLEY BYRNE, Alabama
SAM GRAVES, Missouri
RYAN K. ZINKE, Montana
ELISE M. STEFANIK, New York
MARTHA McSALLY, Arizona
STEPHEN KNIGHT, California
THOMAS MacARTHUR, New Jersey

                  Robert L. Simmons II, Staff Director
                 Alex Gallo, Professional Staff Member
                 Mike Casey, Professional Staff Member
                         Michael Tehrani, Clerk


















                            C O N T E N T S

                              ----------                              
                                                                   Page

              STATEMENTS PRESENTED BY MEMBERS OF CONGRESS

Smith, Hon. Adam, a Representative from Washington, Ranking 
  Member, Committee on Armed Services............................     2
Thornberry, Hon. William M. ``Mac,'' a Representative from Texas, 
  Chairman, Committee on Armed Services..........................     1

                               WITNESSES

Austin, GEN Lloyd J., III, USA, Commander, U.S. Central Command..     6
Wormuth, Hon. Christine E., Under Secretary of Defense for 
  Policy, U.S. Department of Defense.............................     3

                                APPENDIX

Prepared Statements:

    Austin, GEN Lloyd J., III....................................    49
    Wormuth, Hon. Christine E....................................    43

Documents Submitted for the Record:

    [There were no Documents submitted.]

Witness Responses to Questions Asked During the Hearing:

    Mrs. Hartzler................................................   103

Questions Submitted by Members Post Hearing:

    Mr. Shuster..................................................   107






THE PRESIDENT'S PROPOSED AUTHORIZATION FOR USE OF MILITARY FORCE 
  AGAINST ISIL AND U.S. POLICY, STRATEGY, AND POSTURE IN THE GREATER 
                              MIDDLE EAST

                              ----------                              

                          House of Representatives,
                               Committee on Armed Services,
                            Washington, DC, Tuesday, March 3, 2015.
    The committee met, pursuant to call, at 10:02 a.m., in room 
2118, Rayburn House Office Building, Hon. William M. ``Mac'' 
Thornberry (chairman of the committee) presiding.

  OPENING STATEMENT OF HON. WILLIAM M. ``MAC'' THORNBERRY, A 
    REPRESENTATIVE FROM TEXAS, CHAIRMAN, COMMITTEE ON ARMED 
                            SERVICES

    The Chairman. Hearing will come to order.
    Good morning. Today, the House Armed Services Committee 
meets to hear testimony on the U.S. Central Command's strategic 
threats and challenges.
    By way of information for our members and guests, we will 
go as far as we can go until 10:30, then we will recess to 
attend the joint meeting on the House floor, and then we will 
resume just as soon as that joint meeting is over.
    We explored with our witnesses maybe trying to rearrange 
this hearing; that wasn't possible. And so with you all's 
patience, we will come back just as soon as the joint meeting 
is completed in order to continue the hearing.
    Over the past year, the developments in U.S. Central 
Command's [CENTCOM] area of responsibility have been troubling. 
The rise of the Islamic State of Iraq and Syria [ISIS], 
questions about future security situation in Afghanistan, the 
Government of Yemen's fall to Iranian-backed rebels, and the 
prospect of a deal ratifying Iran as a threshold nuclear power, 
all have created serious stress on our strategic position and 
on our alliances. Any notion that the U.S. could pivot away 
from the Middle East toward other regions has proven to be 
naive at best.
    Part of the challenge here is the absence of a 
comprehensive strategy across the Middle East. The limited 
approach that the President has taken has left instability and 
weak or failed states from Libya to Yemen. Many of those 
locations have become breeding grounds for terrorists, which is 
the opposite, of course, of what the administration has tried 
to achieve. As various actors in the Middle East and elsewhere 
follow our defense budget debates, one of the results of that 
has been more doubts about the reliability as an ally.
    What I hope to hear today is a comprehensive strategy or at 
least the foundations of a strategy which will help provide a 
roadmap towards a more stable Middle East led by responsible 
actors. These states have just as much at stake in defeating 
Islamic terrorism as we do.
    This committee also needs to continue to explore 
operational concerns we have about various AUMF [authorization 
for use of military force] proposals that contain restrictions 
on how we engage the enemy. I believe it is critical that we do 
not validate Iran's standing in the region by allowing them to 
have threshold nuclear capability. That has and will breed 
instability and increase security competition in both the 
Middle East and the wider geopolitical order. We cannot allow 
that to happen.
    Mr. Smith.

STATEMENT OF HON. ADAM SMITH, A REPRESENTATIVE FROM WASHINGTON, 
          RANKING MEMBER, COMMITTEE ON ARMED SERVICES

    Mr. Smith. Thank you, Mr. Chairman.
    And I agree with the chairman, you, General Austin, you 
have the toughest assignment in the military. The problems keep 
cropping up in many places. For, you know, over a decade we had 
the wars in both Afghanistan and Iraq. Those two areas are 
still problematic, but many others have been added since then. 
And I think the chairman did a pretty good exhaustive list 
looking at Syria and Yemen and other places.
    And getting back to stability in that region is an enormous 
challenge. I will say that I think it sort of defies a 
comprehensive strategy where you come up with the strategy and 
then you just, you know, automatically plug it in no matter 
what happens. The problems evolve. They move in different 
directions, and they are contradictory.
    Certainly, we are opposed to Assad's leadership in Syria. 
That, you know, bad leadership has led to all kinds of 
problems, but, you know, the alternative does not look much 
more attractive. So what is your solution? What do you do? 
There are no easy answers there, number one; number two, I 
think it would be a mistake for us to assume that it is either 
the U.S.'s responsibility or that we have the ability ourselves 
to solve these problems.
    This is primarily a regional issue. This is primarily a 
problem of governance, leadership, religion, all manner of 
different issues colliding in that region. What we have to do 
is see how we can be part of helping to move those countries in 
a correct direction to get to greater stability. This is not 
something that the U.S. can come up with a plan and then go in 
there and implement it and fix Syria or fix Yemen or fix Iraq.
    I think if we took that approach, that would be a mistake 
and would lead to greater pushback than it would to solutions. 
And obviously, one of the biggest problems in the region, aside 
from the Islamic extremists, like ISIL [Islamic State of Iraq 
and the Levant] and Al Qaeda, is the Sunni-Shia split, you 
know, most exemplified by the split between Saudi Arabia and 
Iran. That complicates everything. In the offensive that we 
have just heard about launched against Tikrit is launched 
against ISIL. Obviously that is, you know, one of our foremost 
enemies that we want to see defeated. One of the countries 
leading that offensive is Iran, another country that we are 
troubled by. How do you sort of deal with all of those 
different complex situations?
    And I think what I want to hear today personally is not 
that you have the answer. I am not going to put that burden on 
you, to say here is the strategy that is going to solve the 
problem. I want to hear how the U.S. can best use its resources 
to make the problem better instead of worse, understanding that 
it defies any sort of simple solution or defies any sort of 
U.S. solution.
    And let me just say on Iran, on the idea that somehow if we 
do a deal with them we make them a threshold nuclear power, 
they have already done that. They made that decision and they 
moved forward. There is no deal--I think the deal that 
everybody wants is where we go in and we tell Iran you give 
everything up and we get to keep the sanctions on you. Well, I 
don't think Iran is going to go for that, so we have got to 
figure out what is the best approach. And the approach the 
administration is trying to take is trying to contain them to 
make sure that they cannot break out and get to a nuclear 
weapon.
    If we don't reach a deal, the risk of that happening goes 
up exponentially because then Iran has nothing to lose. The 
sanctions are there. How do we monitor it? How do we pursue it? 
If we can get an agreement that severely limits their nuclear 
program so that we can be confident that they won't be able to 
get a nuclear weapon for at least a year or more without us 
first knowing that they are trying to do it, I think that is a 
significant improvement. If we walk away, the status quo is not 
to our advantage. There is no reason to believe that they won't 
expand their nuclear situation that could lead to even greater 
conflict in the region.
    Again, I would prefer the answer that says Iran just walks 
away from the nuclear program, no questions asked. I just don't 
see that on the table. And I think that is but one example of 
the complex set of choices that we face here that defy easy 
answers, that defy a U.S. policy that is just going to solve 
the problem.
    So in a complicated world, like I said, I look forward to 
hearing what we can do to hopefully contain the problem and 
move things in the right direction, understanding the 
limitations of our ability to simply solve them.
    With that, I yield back.
    The Chairman. I am pleased to welcome back Ms. Christine 
Wormuth, Under Secretary of Defense for Policy; and General 
Lloyd Austin, Commander of the U.S. Central Command as our 
guest witnesses today.
    Without objection, both of your full written statements 
will be made part of the record, and we would invite you at 
this point to summarize your statements before we go to 
questions.
    Ms. Wormuth.

  STATEMENT OF HON. CHRISTINE E. WORMUTH, UNDER SECRETARY OF 
         DEFENSE FOR POLICY, U.S. DEPARTMENT OF DEFENSE

    Secretary Wormuth. Thank you, Chairman Thornberry, Ranking 
Member Smith, and members of the committee, for inviting me 
here today to talk about DOD [Department of Defense] strategy 
and posture in the Greater Middle East. It is a pleasure to be 
back here again this week to talk to you about a different and 
even more challenging part of the world.
    It is also a great pleasure to be here with General Austin. 
We are very lucky to have him serving as our commander in 
CENTCOM. He is also, frankly, a terrific reminder of the 
overall quality of all of our men and women serving in the 
region today.
    As you all know, our forces in CENTCOM are confronting many 
difficult global security challenges. New realities have forced 
us to take a hard look at our near- and long-term goals for our 
engagement in the Middle East. Although the Department will 
face many different challenges in the Middle East, as Ranking 
Member Smith noted, two issues are particularly critical and 
are at the top of our agenda: The first is how to degrade and 
ultimately defeat ISIL, and the second is preventing Iran from 
obtaining a nuclear weapon.
    In Iraq and Syria, the Department is working with partners 
for a truly whole-of-government effort to try and degrade and 
ultimately defeat ISIL. We have over 2,600 U.S. service men and 
women currently in Iraq working with the Government of Iraq, 
and more than 60 countries participating in our global 
coalition against ISIL. We are making progress. This is going 
to be a long-term campaign and we need to be patient, but we 
are making progress.
    We have blunted ISIL's momentum. We have degraded its 
ability to mass and maneuver forces. We have pressured or 
eliminated its leadership cells, and we have disrupted its 
command and control and supply lines. In short, we have put 
ISIL on the defensive. And I think you are seeing that, and I 
am sure General Austin will speak to that in more detail in 
various parts of Iraq right now.
    But countering ISIL would not be possible without local 
partners in the lead. U.S. and coalition partners are 
supporting the Government of Iraq by assisting with training, 
equipping, and advising its armed forces. Last summer, we stood 
up our advise and assist teams to partner with local forces in 
the ISF [Iraqi security forces] and the Peshmerga, and early 
this year we began training these forces at four different 
sites across Iraq. I traveled to Iraq in January and was able 
to visit one of the sites myself, Taiji, where I was able to 
see firsthand the partnership that we have with Iraqi forces.
    In addition to our efforts in Iraq to go after ISIL, we are 
also working with our coalition partners in Syria, and we are 
also working to build the capabilities of the moderate Syrian 
opposition there. We expect the training of our first DOD class 
of vetted opposition elements to begin--we expect to begin 
training them later this month. Our forces in the region are 
strengthening our partners' ability to fight terrorism locally, 
but ultimately, it is going to be Iraqi forces and Syrian 
fighters who will secure the gains against ISIL and inflict a 
lasting defeat.
    To support what we are doing, the President has developed 
and transmitted to Congress an authorization for the use of 
military force that demonstrates a whole-of-government support 
for him to successfully prosecute the armed conflict against 
ISIL within reasonable limitations. Enacting a bipartisan ISIL-
specific AUMF would provide a clear and powerful signal to the 
American people, to our allies, and to our enemies, and very 
importantly, I think, to our U.S. service men and women that 
the United States stands united to degrade and ultimately 
defeat ISIL. And I look forward to talking with you more this 
morning about the AUMF proposal.
    Defeating ISIL is a major focus and challenge but so is 
Iran in the region. As the President has made clear, his top 
priority is preventing Iran from acquiring a nuclear weapon. 
Iran's nuclear ambitions continue to be a consistent area of 
concern for us in the Department of Defense. We are hopeful 
that the P5+1 negotiations will result in a comprehensive and 
verifiable deal that will ensure the peaceful nature of Iran's 
nuclear program. But at DOD, our job is to remain vigilant as 
well, and we do that by helping to underwrite negotiations with 
our robust posture and capabilities in the region, and we 
maintain a laser-like focus on that.
    As the President has said publicly, we will do whatever is 
necessary to prevent Iran from acquiring a nuclear weapon, 
including the use of military force, if necessary, and we are 
postured to do that in the region today. Beyond Iran's nuclear 
program, we have other concerns about Iran's activities in the 
region. They are engaged in a variety of destabilizing 
activities across the region but also well beyond that. And 
even if we are successful in neutralizing Iran's nuclear threat 
through hard-nosed diplomacy, we will continue to support U.S. 
Government efforts to counter Iran and the full range of 
threats that it poses to our friends and allies in the region 
and beyond.
    Even as we work to degrade and defeat ISIL and to prevent 
Iran from acquiring a nuclear weapon, we are also at the same 
time committed to moving to a smaller force in Afghanistan and 
consolidating the gains that we have made there over the past 
decade of international support to the Afghanistan Government. 
The U.S. mission in Afghanistan has helped support the Afghan 
people and has protected U.S. national interests by working 
with local partners to build up the capacity of the Afghan 
National Security Forces.
    It is clear that we still have a lot of work to do in the 
next 2 years, but I think we have made some very positive 
strides, and I am particularly encouraged by the fact that 
President Ghani sees the U.S. and NATO [North Atlantic Treaty 
Organization] role and presence as a very important part of his 
strategy to bring stability and security to Afghanistan.
    We are also going to continue to work with Pakistan and the 
Central Asian States to address existing and emerging threats 
in the region. Like Afghanistan, Pakistan is also facing a 
potent threat from extremists, and I think something we all saw 
tragically with the attack on the school in Peshawar. We are 
committed to continuing to improve our relationship with 
Pakistan by collaborating where our strategic interests come 
together and engaging diplomatically where they don't.
    Meeting the range of challenges that we see in the CENTCOM 
AOR [area of responsibility] is going to take a lot of 
resources and effort, and it is important that we use those 
resources as effectively as possible, as Ranking Member Smith 
noted. The President's budget request for 2016 supports our 
strategy for the region and enables the services to continue to 
address our most critical needs, even as we get smaller and 
more capable over the next several years.
    If sequestration returns, however, in 2016 and beyond, the 
Department's readiness would deteriorate markedly, which would 
harm our ability to respond promptly and efficiently when 
called upon. As a consequence, we would have fewer forces 
available to support operations and respond to crises in a 
region as vital as the Middle East.
    This is a very dynamic time for our policy in the region. 
It is a challenging time. The Secretary has signaled his 
commitment to working with our government and international 
partners to shape a more secure region in the coming years. We 
are clear-eyed about the fiscal constraints we are facing, but 
we believe it is necessary even in the face of those 
constraints to maintain our commitment to protect our interests 
in the region and to combat the threats that we face there.
    Thank you.
    And I look forward to your questions.
    [The prepared statement of Secretary Wormuth can be found 
in the Appendix on page 43.]
    The Chairman. Thank you.
    General.

  STATEMENT OF GEN LLOYD J. AUSTIN III, USA, COMMANDER, U.S. 
                        CENTRAL COMMAND

    General Austin. Good morning. Chairman Thornberry, 
Congressman Smith, distinguished members of the committee, I 
want to thank you for the opportunity to appear here today to 
talk about the broad efforts and the current posture of the 
United States Central Command.
    Upfront and most importantly, I would like to thank all of 
you for your continued and strong support of our men and women 
in uniform and their families. I look forward to talking about 
them and about the exceptional contributions that they continue 
to make on behalf of the command and our Nation.
    I am pleased to appear here this morning alongside Ms. 
Wormuth. Christine is widely respected by professionals 
throughout the Defense Department, both civilian and military, 
and we are most grateful for her support of our efforts at 
CENTCOM. I will join her in making a few brief opening comments 
and then we are prepared to answer your questions.
    Ladies and gentlemen, much has happened in the CENTCOM area 
of responsibility since I last appeared before this committee a 
year ago. Indeed, the Central Region is today more volatile and 
chaotic than I have seen it at any other point, and the stakes 
have never been higher. The forces of evil that threaten our 
homeland and our interest in that strategically important part 
of the world thrive in unstable environments marked by poor 
governance, economic uncertainty, ungoverned or under-governed 
spaces. And therefore, it is essential that we be present and 
engaged and that we cultivate strong partnerships and continue 
to do our part to address emerging threats and to move the 
region in a direction of greater stability and security. And we 
must be properly resourced to do what is required to 
effectively protect and promote our interests.
    At CENTCOM, in addition to doing all that we can to prevent 
problems from occurring, while shaping future outcomes, we 
spend a great deal of our time and energy managing real-world 
crisis. Over the past year, we dealt with conflicts in Iraq and 
Syria, we transitioned combat operations to a train, advise, 
and assist CT [counterterrorism]-focused mission in 
Afghanistan. At the same time, we dealt with a number of 
difficult challenges in Yemen, Egypt, Lebanon, and in a host of 
other locations throughout our area of responsibility. We 
actively pursued violent extremist groups, and we took measures 
to counter the radical ideologies that are espoused by these 
groups.
    We also dealt with Iran, which continues to act as a 
belligerent force in the region, primarily through its Quds 
forces and through support to proxy actors, such as Lebanese 
Hezbollah. And while we are hopeful that an acceptable 
agreement will be reached with Iran with respect to its nuclear 
program, either way, whether we reach an agreement or we don't 
reach an agreement, Iran will continue to present a challenge 
for us going forward.
    We are faced with a number of challenges in our region; 
however, I firmly believe that challenges also present 
opportunities, and we make progress primarily by pursuing these 
opportunities, and we do pursue them. And I am confident that 
our broad efforts are having a measurable impact. Of course, 
the most immediate threat facing us now is a threat posed by 
ISIL or Daesh [Arabic acronym for ISIL]. This barbaric 
organization must be defeated, and it will be defeated.
    We are currently in the process of executing our regional 
military campaign plan, and I am pleased to report that we are 
making significant progress. At the outset, we said that we 
would need to halt ISIL's advance, and we have done that in 
Iraq. We said that we are going to have to regenerate and 
restructure Iraq's security forces to help them re-establish 
the border, and we are in the process of doing that right now.
    We said that we would have to help our partners in the 
region to bolster their defenses against ISIL, and we continue 
to help our friends in Jordan and Lebanon and Turkey. We said 
that we would have to build credible ground forces to counter 
ISIL in Syria and to guard against ungoverned spaces, and we 
will soon begin doing that as a part of our Syria train and 
equip program.
    So ladies and gentlemen, we are making progress. In fact, 
we are about where we said that we would be in the execution of 
our military campaign plan, which supports the broader whole-
of-government strategy that is designed to counter ISIL. And we 
are having significant effects on the enemy.
    Since commencing our air operations in early August, just 7 
months ago, we have killed more than 8,500 ISIL fighters, we 
have destroyed hundreds of their vehicles along with tanks and 
heavy weapons systems. We have significantly degraded his 
capability, his ability to command and control his forces, and 
also his primary sources of revenue, namely, his oil refineries 
and his crude collection points.
    The fact is that he can no longer do what he did at the 
outset, which is to seize and to hold new territory. He has 
assumed a defensive crouch in Iraq. And although he has greater 
freedom of movement in Syria, he is largely in a defensive 
there as well. He has begun to expand into other areas, namely 
North Africa, and in part because he knows that he is losing in 
Iraq and Syria and he needs to find other ways to maintain his 
legitimacy.
    In going forward, we should expect to see this enemy 
continue to conduct limited attacks and to orchestrate horrific 
scenes in order to create IO [information operations] 
opportunities and to distract and to intimidate. But make no 
mistake, ISIL is losing this fight, and I am certain that he 
will be defeated. Again, he will be defeated.
    Having said that, there is still work to be done to get to 
that point, and we intend to continue to execute the campaign 
as designed, and I say that because how we go about this is 
very important. If we don't first get things under control in 
Iraq, where there is a government that we can work with and 
with some reliable security forces that are available, if we 
don't get things right there first before expanding our efforts 
in Syria, then we risk making matters worse in both countries.
    But done the right way, in light of the limitations that 
exist, I believe that we can and we will be successful in our 
efforts to defeat ISIL. And at the same time, we can be assured 
continued progress in pursuit of our principal goal, which is 
to move this strategically important region in the direction of 
increased stability and security.
    Going forward, we will all be required to make tough 
choices, and we will need to find ways to do more or at least 
as much with less than the current fiscal environment. That 
said, I remain concerned by the fact that capability reductions 
can and will impact our ability to respond to crisis, and 
especially in the highly volatile Central Region. The resulting 
loss of flexibility makes the U.S. and our interests 
increasingly vulnerable to external pressures.
    And so I would ask Congress to do its part to make sure 
that we avoid sequestration and other resourcing limitations 
that serve to degrade the readiness of America's military 
forces.
    Chairman Thornberry, Ranking Member Smith, members of the 
committee, I want to thank you once more for the strong support 
that you continue to show to our service members, our 
civilians, and their families. They are the very best in the 
world at what they do. They continue to demonstrate absolute 
selflessness and they make enormous sacrifices in support of 
the mission and in support of one another. I am incredibly 
proud of them and I know that you are as well.
    So thank you again for this opportunity, and I look forward 
to answering your questions.
    [The prepared statement of General Austin can be found in 
the Appendix on page 49.]
    The Chairman. Thank you, General. We share your sentiment 
for those who serve our Nation, including yourself.
    I don't think we have time to begin the questioning, so the 
committee is going to stand in recess until just after the 
joint meeting where we will resume.
    In the meantime, you all please enjoy our hospitality as 
best you can.
    [Recess.]
    The Chairman. The committee will come to order.
    Again, Ms. Wormuth, and, General, thank you for your 
patience. And we understand the inconvenience of this coming 
and going, but we appreciate you all being here. Members will 
continue to come in as they come back from the joint meeting.
    I don't know, General, did you have a chance to listen to 
the Prime Minister's speech?
    General Austin. Yes, sir, I did.
    The Chairman. Okay. You know, I was struck, your comments 
in your opening statement, about Iran's other activities other 
than its nuclear programs. And that was certainly a point that 
was highlighted by the Prime Minister.
    You spend a lot of time dealing with military leaders 
throughout your region in the Middle East and North Africa. My 
question to you is: If there is an agreement that says that 
Iran shall not be closer to--that has the effect of having Iran 
not closer than 1 year of having a nuclear weapon, what, in 
your estimation, would be the reaction of other countries in 
the region? And I am thinking particularly about the Saudis, 
the Turks, the Egyptians, people who are interested in this 
negotiation other than Israel. What would be their reaction to 
that?
    General Austin. Sir, no matter what the outcome is, I think 
there will be--always be some degree of speculation. I think 
the first thing that they will want to know is what the details 
of the agreement are before they make an assessment on how it 
affects their interests going forward and their security.
    To your point that you made earlier, sir, I think the 
people--the leaders in the region certainly believe that Iran's 
quest for a nuclear weapon is a threat to the region. But they 
are also equally concerned about Iran's ability to mine the 
Straits, Iran's cyber capabilities, Iran's ICBM 
[intercontinental ballistic missile] capability or ballistic 
missile capability, as well as the activity of their Quds 
forces, which is unhelpful. And so whether we get a deal or 
don't get a deal, I think they will still share those concerns.
    As we negotiate a deal--and I certainly hope that we are 
able to negotiate one, I think one of the things that we will 
have to do early on is to go and reassure our allies that we 
are going to be with them going forward. And we have--we have 
interest in the region that we will have to protect and we will 
certainly--certainly move to do that early on.
    The Chairman. Yeah. When I have traveled in the region and 
also visited with some of their ambassadors here in Washington, 
one of the concerns I have heard expressed is that having Iran 
be a threshold nuclear state, basically being able to have it 
within a year or less, will embolden them with these other kind 
of activities that you talked about because, then, they will 
have less concern that the regime is threatened and, therefore, 
they will be more aggressive in pushing their proxies and 
potentially naval matters in the Persian Gulf and so forth. Is 
that some of the concerns that you have heard that you think 
allies will need to be reassured about?
    General Austin. Yes, sir. I think there are arguments on 
both side of the fence in terms of, you know, what people 
speculate that Iran's reaction will be and what we will need to 
do to counter those reactions or hedge against unhelpful 
activity.
    The Chairman. Yeah. Well, I am concerned not only about 
Israel's reaction, which we just heard, but there are a number 
of other countries that are vitally interested in this. And so 
it seems to me that that also has to be taken into account. 
There are lots of topics we can and should talk about, 
including ISIS [Islamic State of Iraq and Syria], Yemen, and 
Afghanistan.
    But at this point, I am going to yield to Mr. Smith and 
other members for questions they may have.
    Mr. Smith. Thank you.
    Following up on the Iran issue, I mean, I certainly would 
prefer a situation where Iran gives up all of its nuclear 
capacity and, you know, we can take that off the table. And I 
don't think there is any disagreement with that. The question 
is, you know, how would we get there? And the answer is, at the 
moment, we wouldn't. Iran would not agree to that. And I 
suppose, as the Prime Minister suggested, we could simply hold 
out and hope for a better deal.
    But one question I have is, as this--if we were to do that, 
if we were to walk away, our sanctions regime is dependent upon 
other countries agreeing to it. What is your view on what 
Russia and China and Europe would do in terms of maintaining 
their sanctions on Iran if we walked away from a deal? And how 
would that effect Iran's economy and the entire negotiation?
    Secretary Wormuth. Ranking Member Smith, I think obviously 
the sanctions regime that we have been able to put in place 
with support from the international community has been key to 
bringing the Iranians to the table for the negotiations. And I 
think it would be an open question, particularly with some of 
the countries, as to whether the support for those sanctions 
over time for those very, very stiff sanctions, whether they 
could be sustained in the absence of an ongoing negotiation as 
we have right now.
    So again, I think, our judgment to date has been that as 
difficult as the situation is--and as you said, Iran has a vote 
in this. I mean, they have to be willing to make a deal--our 
sense has been that the talks that we are engaged in right now 
are the best chance for a potentially lasting solution, and we 
want to give them a chance. But if they end and there is not a 
deal, you know, I think we will have to revisit the way 
forward. But reassurance of the ally--or the partners in the 
region is going to be a very key part of that because they are 
obviously very nervous.
    Mr. Smith. Okay. General Austin, do you have a comment or--
--
    General Austin. I don't, sir. I certainly agree----
    Mr. Smith. Okay.
    General Austin [continuing]. With what Ms. Wormuth has 
said, and I wouldn't have anything to add to that, sir.
    Mr. Smith. Okay. And then the other piece of it is--I mean, 
there is a number of arguments. One of the arguments is that 
Iran frequently violates deals and doesn't do what they said 
they were going to. And if that is the case, there is really 
nothing we could do. You know, they are basically going to move 
forward and do whatever they are going to do and, you know, we 
are limited.
    The more interesting question to me is: As has been pointed 
out, Iran has been a year or--depending on who you listen to, 
anywhere from 3 months to a year away from a nuclear weapon 
for, gosh, 10 years now at least. Why, in your estimation, have 
they not just gone ahead and built one?
    Secretary Wormuth. Congressman Smith, I can't speculate as 
to the reasons why they haven't----
    Mr. Smith. Well, anyone can speculate.
    Secretary Wormuth. Well, I guess what I would say is that 
is what it would be. It would be speculation, you know.
    Mr. Smith. Right.
    Secretary Wormuth. Our sense is, is that Iran's leadership 
has not made the decision to go all the way and acquire a 
nuclear weapon. Why that is, you know, is known to the Supreme 
Leader, but I am not sure it is known to anyone in our 
government.
    Mr. Smith. Right. No. I mean, it is, I think, a cost-
benefit analysis there. And, you know, arguably the dumbest 
policy Iran has pursued in the last, you know, 15 years is the 
pursuit of a nuclear weapon because they are doing all manner 
of other bad stuff, but this is the one that has united the 
international community against them and brought sanctions 
against them.
    So, you know, I just think that it is worth it to continue 
to try to negotiate because if we could take the nuclear weapon 
off the table for some extended period of time in Iran, there 
is a big benefit to that. Just like, you know, for all of the 
missteps that happened in Syria, the fact that we were able to 
get rid of Syria's chemical weapons is certainly a positive 
given now that ISIL is, you know, running around a good chunk 
of Syria relatively free.
    So I think we need to keep trying to figure out a way to 
get Iran to agree not to build that weapon. And I also think 
that it is clear from their past actions that it is--it is a 
50/50 question for them. It is not something that they have 100 
percent decided to do. Because if they had 100 percent decided 
to do it, it would be done at this point by even Prime Minister 
Netanyahu's own admission saying they have been, you know, 6 
months away from a bomb for 15 years. So I hope we will keep 
trying to figure that out.
    Final question. And I know this is impossible to answer but 
a huge part of the problem in the region--and, believe me, 
there are many. But one big part of the problem in the region 
is the Shia-Sunni split. As I mentioned in my opening remarks, 
we have the ironic situation of Iran fighting ISIL and all of 
the different, you know, disruptive activities that are going 
on in Lebanon and Syria and elsewhere.
    And while we are trying to specifically contain the 
extremist threat that is ISIL, you know, part of what funded 
them early on was the notion of some of our allies in the 
region that, well, you know Assad is friends with Iran, so 
whatever we can do to go after him is fine and that added fuel 
to the fire.
    Is there any hope of any sort of, you know, both sides, 
Shia and Sunni, coming to at least--I don't want to say a peace 
agreement--but figuring out how to better coexist in that 
region in a less extremist way?
    General Austin. Sir, you are right. That is a difficult 
question to answer, and it involves some speculation going 
forward. But I would hope that we would approach this, at 
least, on a country-by-country basis at the outset. And 
certainly what we are trying to do in Iraq is, is ensure that 
the country stays together, it remains focused on the right 
things, that the government is accommodating to the Sunni 
population and the Kurdish population that is in the country 
which is, in my mind, you know, underlines or is a foundation 
for a lot of the problems that we have seen recently occur. So 
I think, you know, starting with that, I think it would be a 
good start.
    Also, no matter how we got here in terms of how the 
activity was supported in the past, the encouraging thing is 
that what we see currently is a lot of countries in the region 
and across the globe coming together to try to work with us to 
stem the flow of foreign fighters, to also minimize 
opportunities for this enemy to resource itself, to finance 
itself. And I think those types of things will make a 
difference going forward.
    And I will yield to Ms. Wormuth.
    Secretary Wormuth. I was basically going to make the same 
point. I mean, I don't think that there is a single cut-and-
paste solution that you can take. But I think one of the 
lessons that we saw coming out perhaps of the previous 
experience of Iraq was that Maliki's very sectarian approach to 
governing was a big part of how we got here; and that, I think, 
[Prime Minister] Abadi has a much greater understanding of the 
need for a more inclusive approach. And we continue to strongly 
underscore just how important it is that that be central to his 
approach to trying to solve this problem with ISIL.
    I think it is also--I wouldn't want to overstate it--but I 
do think that the--the just pure barbarity of what ISIL has 
prosecuted in terms of the beheadings, the immolation of the 
Jordanian pilot, that has seemed to cause, I think, many 
countries and many of the publics in the region to look at this 
in a different way and to really, I think, question the 
extremism that they are seeing. So my hope is that perhaps that 
will do more to help bring the larger society together to try 
to find solutions.
    Mr. Smith. Yeah. And I am sorry, final question on Iran. I 
guess the big question is: If the negotiations fall apart, 
where does that leave us? Because if negotiations fall apart--
and we are not even trying to get them to stop--at that point, 
you know, it is a wide open question. Is Iran going to pursue 
that nuclear weapon or not?
    What do we do then? What do you think Israel does then? Do 
they wait and hope that, you know, the last decade continues 
and Iran doesn't step across that line? How does that affect 
the region?
    Secretary Wormuth. I think what I would say, Congressman, 
is, you know, if there isn't a deal, certainly from the DOD 
perspective, we will continue to have the responsibility to--to 
essentially be the insurance policy, if you will, for the 
region in terms of making sure that we have the capabilities in 
our country to help defend Israel, to help defend our interests 
in the region. And we are committed to making sure that we have 
those capabilities in a very robust fashion. I think we will 
work closely with our partners in the region to reassure them 
of that continued commitment. And then I think, you know, how 
Israel approaches the problem will be, again, largely up to 
them.
    But we--our responsibility in DOD is to make sure that we 
have the capabilities to respond if we think that there is a 
reason to do so and to make sure that we have the ability to 
provide a military option if needed.
    Mr. Smith. Thank you.
    The Chairman. Mr. Jones.
    Mr. Jones. Mr. Chairman, thank you very much. And to the 
two panelists, thank you for being here and for your service to 
our Nation.
    I am always interested--I have been on this committee for 
20 years, so I go back to the Iraq war and 9/11 and all the 
tragedies of 9/11.
    And I heard you, Madam Secretary, and also, General Austin. 
You mentioned, Madam Secretary, sequestration. General Austin 
keeps talking about resources.
    We have had the service chiefs in here recently to talk 
about their budgets, and I know the world is very unsettled. I 
know that we have a certain responsibility, first, to the 
American people and then to our friends in other regions of the 
world. I don't dispute that at all.
    But I just wonder, when you--you know, you are talking 
about the training these security forces in Afghanistan that it 
is--you know, still it is going well or it is going okay--maybe 
is a better word than ``well.'' It is a long process.
    I just wondered--I am not a great student of history, but I 
did study history. I just wonder how much longer can we as a 
nation--and you are a national figure because you are in the 
administration. General, you are an outstanding military man 
yourself.
    How much longer can we keep going down this road and expect 
our military to continue to do this and that when their budgets 
are being cut behind them? And I have been a strong proponent, 
if we are going to get serious about the world situation, we 
need to have a war tax. We cannot keep playing this budget game 
that we keep playing here in Washington and have you come 
testify. And then we have to battle this thing on the floor of 
the House, the chairman and ranking member do, of trying to 
salvage whatever money we can salvage.
    So my point is: Are we getting to a point that--as I think 
General Austin said, aren't we at a point that we need to say 
the administration military leaders, you know, you and Saudi, 
you have got a lot of troops, put your troops on the ground. We 
have got 100 to 200,000 Iraqis in the military. I know what we 
are trying to do. Some approximations I have heard is 20 to 
30,000 fighters. General Austin, you say we have already killed 
8,000. So let's take the high figure of 30,000 jihadists and 
reduce that to 20. I don't understand the numbers of this 
thing, the financial numbers, nor do I understand the numbers 
of kill.
    And how in the world are we going to continue to expand and 
send our troops around the world and try to take care of 
everybody else's problems if they won't step up and take care 
of it themselves and say to America, ``You back us up, but we 
are going to be the frontline troops''? I don't know--I am not 
criticizing the administration. I just don't know how much 
longer this game can keep going on.
    Secretary Wormuth. Congressman, if I could try to respond 
to a couple of those points. I think fundamentally we have 
tried in a number of different areas, particularly I would say 
Afghanistan, but also in terms of the counter-ISIL campaign to 
work very much by, with, and through partner countries. So in 
Afghanistan, you know, we are very much trying to enable the 
ANSF [Afghan National Security Forces] to be able to take care 
of their own security.
    You know, fundamentally we got in there, as you well know, 
after 9/11 to ensure that Afghanistan would not be a safe haven 
for Al Qaeda. But in the next 2 years, I think we feel pretty 
good about what we are going to be able to do with the ANSF so 
that they will be able to take over by the end of 2016 and take 
care of their security themselves. We will stay there in a 
relatively small security cooperation footprint in Kabul, but 
it will largely be their responsibility at that point.
    And in Iraq and Syria, you know, we are working very 
closely with a huge coalition, and about more than a dozen of 
those members are contributing to the military coalition. So I 
think we are very much trying to take an approach that isn't 
about America doing everything for everyone but trying to work 
with others to help them do more for themselves. And I am sure 
General Austin will want to add to that.
    General Austin. And in terms of the effects that we are 
having on the enemy, sir, and in terms of the numbers, I think 
that the numbers are input to the overall calculus in terms of 
the effects created. But I think it is more important to focus 
on the effects.
    And as we look at ISIL's behavior today, you know, you go 
back several months ago, ISIL was moving around in large convoy 
formations, flying a lot of black flags, taking up large swaths 
of territory. They can no longer do that, and it is principally 
because of the effects that we have had on--they have the 
ability to recruit more fighters into the country, and we know 
that. And so it is not about just the kinetic effects alone. It 
is about that, plus reducing visibility to recruit foreign 
fighters, plus reducing visibility to finance themselves. That 
creates the effects that we are beginning to see. And the enemy 
is beginning to struggle in a number of areas, in terms of 
governing, in terms of ability to control territory. So----
    Mr. Jones. Thank you.
    The Chairman. Mr. Courtney.
    Mr. Courtney. Thank you, Mr. Chairman, and thank you to the 
witnesses.
    Again, just to go back for a moment regarding some of your 
testimony concerning our relationship with the Israeli 
Government and military. Again, General Dempsey has been before 
this committee a number of times and talked about how the mil-
to-mil connection with Israel has a special sort of quality in 
nature that really is almost not matched anywhere in the world. 
And I was wondering, General, if you could sort of just kind of 
characterize that in terms of your own experience?
    And, Ms. Wormuth, you know, you mentioned, you know, that 
this is something that is ongoing and that will be there with 
or without an agreement. I was wondering, again, if you could 
just sort of underscore that point?
    General Austin. And, sir, I believe the question is, our 
military-to-military relationship with Israel?
    As you know, sir, Israel falls in European Command's area 
of responsibility. But we certainly--since it borders our 
region of responsibility or our area of responsibility, we 
certainly see a need to maintain good connectivity.
    I had a great relationship with the former chief of defense 
there, with Benny Gantz. And I have not had a chance to meet 
the new--or his replacement, but I have met him on a VTC [video 
teleconference] where he and Benny and I, you know, along with 
General Breedlove, were able to share some ideas and concerns.
    And so my hope--and I know this will be the case--is that 
we will continue to have a very, very strong relationship going 
forward. But, again, that--that--Israel is outside of my area 
of responsibility.
    Secretary Wormuth. I would just add to that, Congressman, 
by saying, you know, we have an incredibly strong relationship, 
defense relationship, with Israel. Secretary Carter spoke with 
Bogie Ya'alon within days of coming into office. And I am sure 
that will be, you know, one of his very close counterpart 
relationships.
    We do many exercises with Israel. We have policy talks with 
them every year where we talk about everything from countering 
WMD [weapons of mass destruction] to exchanging lessons learned 
on homeland defense. We are very committed to preserving their 
qualitative military edge, and this is something that we talk 
about regularly and actively with the Israelis in terms of our 
arms sales to other countries in the region, for example, as 
well as our arms sales with Israel itself.
    We have provided, in the last several years, over a billion 
dollars for Israel's missile defense programs from Iron Dome to 
David's Sling to Arrow. So we have a very, I think, robust and 
healthy and resilient defense relationship with Israel.
    Mr. Courtney. Okay. Thank you.
    Both of you have talked about the impact of sequestration 
in terms of executing your mission in that part of the world. I 
remember in March of 2013 when sequestration hit for the first 
time, the USS Harry S. Truman, which was scheduled to be 
deployed in the Middle East, had to tie up in Virginia for a 
number of months before this place finally worked things out.
    And I guess the question is, is that, again, if we go into 
2016 with sequester-level spending, General, do you have any 
testimony or comments regarding the impact of the number of 
carriers that might be available and how critical their mission 
is?
    General Austin. The number of--having a carrier battle 
group in the region is absolutely critical to us. And, of 
course, I remain concerned about our ability to do that going 
forward.
    A good example of that is what we recently saw here in our 
counter-ISIL efforts. As things unfolded in Iraq and Syria, we 
were able to rapidly respond to that issue, that crisis because 
we had a carrier in the region and we were able to use that 
carrier to put up aircraft over Iraq to help the situation, 
gain situational awareness. And so without that degree of 
flexibility, it will be very, very difficult to address these 
kinds of emerging crisis in the future.
    And so when you look at a region that has Afghanistan and 
Pakistan, Iraq, Syria, Yemen, Lebanon, Egypt, there will 
continue to be challenges. And of course, I worry that we will 
have the resources to make sure that we can continue to work 
with our partners to address those challenges.
    Mr. Courtney. Thank you.
    I yield back.
    The Chairman. Thank you.
    Mr. Rogers.
    Mr. Rogers. Thank you, Mr. Chairman.
    General, recently we have heard a lot about Patriot 
batteries and the Army air defenders being stretched to their 
breaking point. And, in fact, recently deputy commander of the 
32nd Air and Missile Defense Command stated this: ``Today we 
have air and missile defense forces in nine countries. On any 
given day, nearly half of the Army's Patriot batteries are 
outside the continental United States and we have begun forward 
deploying THAAD [Terminal High Altitude Area Defense] 
batteries. We are rapidly approaching an inflection point where 
we face the risk of breaking our AMD, our air missile defense 
force.''
    I have two questions. First, as the imminent modernization 
of this system creates further strains on the deployment 
capability, what are your concerns as a combatant commander? 
And the second question is, what are the alternatives to 
drawing down force structure to make sure we don't deny our 
combatant commanders the capability they need?
    General Austin. Sir, on the first question, in terms of a 
combatant commander's perspective on this, while I certainly 
share the Army services' concerns in being able to manage the 
op [operations] tempo of its people, I think that is very, very 
important. But as you take a look at the emerging threats in 
the region, in the Central Region, certainly I remain concerned 
about Iran's ballistic missile capability. Now they continue to 
gain more capability and that capability is more accurate and 
more lethal as we go forward. So I think there is a need--there 
will remain a need for a good air defense capability to make 
sure that we protect our interest in the region and also to be 
able to work with our allies in the region.
    In terms of ways to mitigate this, we are going to have to 
continue to work with the allies to help them develop capacity 
and capability to, again, not only take care of their own 
sovereign territory, but also add to, you know, the greater 
potential, the greater capability in the region. And we have a 
long way to go in that endeavor, but I think that that is--that 
is one of the major ways that we can look to address this issue 
going forward.
    Mr. Rogers. Have you or OSD [Office of the Secretary of 
Defense] or Joint Staff been talking with any of our allies 
about hosting some of these assets on a semi-permanent basis 
instead of us rotating them around?
    General Austin. We have not reached a decision to forward 
position any assets, sir. So we have continuing dialogue with 
our allies in the region in terms of what is possible, what is 
not possible. But, you know, certainly we have not taken a 
decision to forward position additional missile defense assets.
    Mr. Rogers. If you did, would it take some of the stress 
off by not having to rotate?
    General Austin. I think it would, sir. I think that would 
certainly be one way to address this.
    Mr. Rogers. Okay. Thank you.
    That is all I have, Mr. Chairman.
    The Chairman. Ms. Tsongas.
    Ms. Tsongas. Thank you, Mr. Chairman. And thank you both 
for being here. Sorry we had that break that took us away for 
such a while.
    You know, it has been said--and I think as we--in hearing 
Mr. Netanyahu's speech today and hearing your comments, that 
the challenges in the Middle East are like, at least, a three-
dimensional chess game, and I think actually there are probably 
even more layers to that.
    And I think the fact that we have been given the 
opportunity to consider an AUMF is very important. It allows 
the Congress to weigh in and think through the implications of 
what we are doing and how best to achieve success. But, again, 
given that it is so multidimensional, it is actually rather 
hard to grapple with. I think we are all struggling with that.
    But I--and I think--I just happened to read in the paper 
today that Iran is actually playing a significant role in 
Tikrit. That their forces are there, you know, helping--helping 
push back on ISIL. And I think that highlights the complexity 
of the region. While we are trying to negotiate an agreement on 
their nuclear weaponization at the same time, we are taking--or 
taking advantage of their assistance. And I am curious, General 
Austin, how you think this through?
    General Austin. Well, it certainly is a complex situation, 
ma'am. Thanks.
    Obviously, we are focused on helping--providing support to 
the country, the Government of Iraq in its efforts to counter 
ISIL. And this is a--this is an Iraqi effort. The Iraqis have 
to do this. We will enable their efforts with our air power, 
with our advice, and the assistance in any way we can. But at 
the end of the day, they have to be able to do this.
    And, certainly, there are areas in the eastern part of the 
country that they have--leading up to this point that they have 
gained assistance from their neighbor with and the popular 
mobilization forces that are there working. So if you look at 
the areas in the eastern part of the country, Jalula, Khanaqin, 
they have worked together in those areas. And then leading up 
to this, they have done a number of things to get to this 
point.
    So, in terms of sorting this out, again, our focus is on 
the Government of Iraq and working with the Government of Iraq 
to provide assistance to them to counter ISIL.
    Ms. Tsongas. So, in essence, you defer to their 
relationship with Iran in that instance. And then how do you 
see that complicates the next step, so that is the 
accommodation between the Shia and the Sunni so that, going 
forward, the government is representative of the country and we 
don't backtrack into the situation we are in today.
    General Austin. I think it is absolutely key that they make 
sure that they have provisions in place to accommodate the 
Sunnis and the Kurds. I think, you know, that lack of inclusion 
is what got us to this point, and I think the only way that we 
can ensure that we don't go back there is if we have the right 
steps taken by the government. So pressure needs to remain on 
the government to ensure that they do the right things.
    Ms. Tsongas. Another question. I think the other challenge 
of ISIS, in my mind, is that it is a little bit like Whac-a-
Mole. You deal with it in one part of, you know, Iraq or Syria. 
And then, as you were saying in your testimony, now we are 
having to contend with it in North Africa.
    How do you think through the--you know, preparing our 
military response to those possibilities without always being 
able or unless you have adequate intelligence, to assess where 
the next challenge is? It seems to me we run the risk of 
stretching ourselves very, very thin.
    General Austin. This is going to have to be an 
international effort going forward. And we are going to have to 
count on our strategic intelligence to lead that international 
effort as we go forward.
    There are certain things that we know about ISIL. We know 
that it looks to exploit sectarian tensions. We know that it 
wants to be a caliphate. So it looks to control large swaths of 
territory, and it must govern that territory. But it is also a 
big business, and it requires enormous resources. So, as you 
look around the globe, I mean, it is more likely to go to those 
places that has ungoverned spaces and also places where it can 
acquire resources to support this incredible effort. And I 
think, if you can reduce those possibilities, you have a much 
better chance of staying ahead of this.
    But there is a--there is a greater thing that I think, you 
know, feeds all of this and that is, you know, the narrative, 
the ideology that supports this, that feeds this. And I think 
there has got to be some things that are done to counter that 
ideology as well.
    Ms. Tsongas. Thank you, General.
    The Chairman. Mr. Franks.
    Mr. Franks. Well, thank you, Mr. Chairman.
    Thank you both for being here.
    Ms. Wormuth, I would kind of take off on a question Ms. 
Tsongas touched on. Can you provide us with the--sort of the 
official DOD policy on military cooperation with Iran forces on 
the ground in Iraq?
    Secretary Wormuth. Certainly, Congressman. Our policy is 
that we don't coordinate with Iranian forces on the ground in 
Iraq. We are not communicating with those forces. We are not 
coordinating with those forces, so that is our policy.
    Mr. Franks. General, thank you for being here. Thank you 
for your dedication of your entire life to the cause of 
freedom. This committee is always grateful to people like you.
    In terms of that question, expanded just slightly, with the 
ISF and Iraqi Shia militia many times working to fight the same 
enemy, there is a concern that any training on our part for the 
Iranian--or the Iraqi forces may turn into training and 
equipping the Iran Quds forces. And it seems like we could see 
Iran's presence kindle the sectarian violence that has sort of 
characterized this entire issue in the first place. And, also, 
I am concerned that, to legitimatize Iran's actions there, it 
may actually increase their leverage in not only the debate 
with the President but with the Iranian commitment to try to 
gain nuclear weapons.
    So can you tell me any honest assessment of any cooperation 
between U.S. and Iranian forces and how do we train and equip 
the ISF without helping the Iranian forces or somehow getting 
tangled up in that?
    General Austin. Sir, there is no cooperation between us and 
the Iranian forces, as Ms. Wormuth has said. And we are going 
to have to count on the Iraqi Government to do those things 
necessary to, number one, ensure that things don't trend toward 
greater sectarian violence. And we encourage them to do that on 
a routine basis and----
    But in terms of ensuring that, you know, our resources 
don't migrate over to Shia militia, there is no easy way to be 
absolutely certain that that can't happen. But I can tell you 
that we will do everything within our power to prevent that 
from happening. And, again, I think the first line of defense 
here has got to be the Iraqi Government. And we are focused on 
helping them, helping their legitimate forces to be successful 
in its endeavor.
    Mr. Franks. Now, let me shift gears on you here just a 
moment and say, you know, it could be or would be your 
responsibility as combatant commander under the draft AUMF to 
ensure that the mission is accomplished against ISIS and yet 
also to make certain that American forces cannot engage in 
``enduring offensive ground operations.''
    And can you give this committee your best assessment of 
your ability to defeat, degrade, and destroy ISIS within 3 
years while remaining true to the commitment not to having 
enduring offensive ground operations or executing those types 
of operations? Just your best military assessment.
    General Austin. I am confident--absolutely confident, that 
we can defeat ISIL. And I base that upon the progress that we 
have made to date. And as you know, we don't have large amounts 
of ground forces in Iraq, but we have been very effective in 
terms of enabling the Iraqi security forces and enabling the 
Peshmerga in the north, and they are having good effects. And 
we have also had good effects against this enemy in Syria. So I 
am very confident that going forward, we will get this done, we 
will defeat ISIL. And so in terms of an enduring requirement 
for Iraq, I don't see that requirement there because I think we 
will be able to get this done with the approach that we are 
taking.
    At the end of the day, sir, this has to be--it has to be 
done by the Iraqis. And we have to put the measures in place 
that will ensure, you know, a lasting solution and not just a 
short-term military solution. And we are hopeful that the Iraqi 
Government will do the things that are necessary to ensure that 
lasting solution.
    Mr. Franks. All right. Quickly before I lose my time, can 
you tell me what one thing that you might encourage this 
committee to try to offer policy-wise or resource-wise that 
would help to that end?
    General Austin. Sir, policy-wise, as much flexibility as 
you can give us as you consider the legislation going forward. 
I think flexibility in combatting an enemy like this is 
absolutely essential.
    And then resource-wise, I need the ability to maintain 
capability forward deployed in the region.
    The Chairman. Mr. Garamendi.
    Mr. Garamendi. Thank you, Mr. Chairman.
    Secretary Wormuth and General Austin, thank you very much 
for your service and for the information you have provided for 
us today. I appreciate that.
    I want to follow up on some of the questions that my 
colleague was asking a moment ago and very specifically, 
General, can ISIS be degraded and defeated without U.S. ground 
forces, i.e., infantry brigades, artillery, armor?
    General Austin. Sir, I think they can, and they will. But 
they will use--we will use the Iraqi security forces and the 
Peshmerga forces to do this. And I think, you know, we have 
advisors on the ground and how we employ those advisors will 
be--you know I will make a decision on that and request for 
authorities on a case-by-case basis.
    Mr. Garamendi. I would assume that special forces on the 
ground, forward observers, and the like would be part of what 
you would want to be able to do?
    General Austin. Certainly. Part of the calculus, sir, and 
when I think I have reached a point where I need to employ 
that, then I will go back to my boss and request specifically 
for that opportunity.
    Mr. Garamendi. And, Madam Secretary, the issue of enduring 
has been much discussed. It was discussed here last time we met 
last week. And I raised the question, let's be very specific. 
The power of the purse remains with us and if we simply don't 
allow the general to have money for the brigades, infantry, et 
cetera, is that restriction viable in your mind? And your mind 
also, General?
    Secretary Wormuth. Congressman, just to make sure I 
understand your question, are you saying that is it viable to 
not conduct enduring ground offensive operations if Congress 
doesn't provide the funding?
    Mr. Garamendi. Well, if they won't provide the funding, you 
wouldn't be able to do it, period. I mean that is very clear. 
It is the power of the purse. You don't have money for that 
particular operation. And so the point that I am making here is 
that rather than some wishy-washy mushy language like 
``enduring,'' we simply say, General, you have all the money 
you need for all of the other things, except for ground 
operations, that is, infantry brigades, other artillery, 
armored, et cetera, but all the rest of it you have whatever 
you might need?
    Secretary Wormuth. Congressman, I think Congress clearly 
always has the power of the purse. The intent with the AUMF 
proposal was to include a reasonable limitation that made clear 
that we were not going to prosecute the campaign against ISIL 
in the same way that we were in Iraq, for example, in the last 
decade or in Afghanistan. Those kind of very large-scale 
operations.
    I also just wanted to take the opportunity quickly--
Congressman Franks asked the question--also, the 3-year clause 
in the AUMF, that is not intended to be an indication that we 
believe--certainly, that this Department believes that we will 
necessarily defeat ISIL within that timeframe. It is a 
recognition that the executive branch and the legislative 
branch may well want to revisit the authorization at that time, 
but we think the campaign could well go on longer.
    Mr. Garamendi. Well, I couldn't agree more with you. 
Presumably, we will continue to be in session year after year. 
And if, for example, we were to restrict the funding, as I just 
described, we could revisit it at any moment and provide 
whatever money might be necessary at that time. But it does 
provide a restriction going in as does the 3-year time limit.
    And as I said last week, I think it is extremely important 
that the next Presidential campaign focus on this issue. And if 
you have a 3-year time limit, it most definitely will be 
focusing on the issue of how are we going to conduct ourselves 
militarily or other ways in the Middle East. I think that is 
extremely important that that happen in the next Presidential 
campaign.
    I think we are just nearly out of time. General, I want to 
just review what you said and that is that ISIL can be 
defeated--degraded and defeated without U.S. ground forces?
    General Austin. Mr. Garamendi, we have ground forces in the 
country right now. But I think we are talking about brigades--
battalions and brigades, large formations.
    Mr. Garamendi. Exactly.
    General Austin. Sir, yes. My answer is yes. And I make that 
statement based upon what we are doing now.
    ISIL is losing this fight. We are having significant 
effects on this enemy. We have got to do a lot more going 
forward. We always said that it would take time, but it will 
require the work of the Iraqi ground forces in order to get 
this done.
    Mr. Garamendi. I appreciate that. And I would also assume 
that there may be a role for Jordan, Turkey, and other 
countries to have their troops on the ground. Would that be 
correct?
    General Austin. Sir, there is always that possibility. We 
invite anyone who wants to contribute to this and certainly 
those types of decisions are made by the individual countries 
as you know, sir.
    Mr. Garamendi. Understood. Yeah. Thank you very much, 
General, and appreciate your support. And Madam Secretary, 
also.
    The Chairman. Mr. Nugent.
    Mr. Nugent. Thank you, Mr. Chairman. And thank you, Ms. 
Wormuth, and, General Austin, particularly for your service to 
this country.
    You know, when I hear--when we talk about Iran and Iran's 
troops or advisors or whatever they are calling them assisting 
Iraq, what I worry is that the sectarian violence that Iran 
really does push. And in 2011, you know, when Maliki was 
beholding to Iran and Hezbollah actually attacked our troops 
with an IRAM [improvised rocket assisted mortar], Iranian 
warhead and killed five of our 1st Infantry Division kids the 
night that I was in Iraq, the night that my son was with the 
1st Infantry Division.
    So I wonder how this is going to play out if we allow Iran 
to have that kind of play today if, in fact, we do have to use 
some special forces or something other than a brigade-sized 
team to assist the Iraqis? How is that going to play out, 
particularly with Iran's past performance in supporting 
terrorism across the world but particularly Hezbollah and 
particularly killing American troops just, you know, 4 years 
ago?
    General Austin. Sir, I certainly share your concern with 
the possibility of increasing sectarian activity as we go 
forward. And this is something that we continue to emphasize, 
again, with the Government of--to the Government of Iraq that, 
you know, they must be mindful of this. They must control the 
activities of Shia militia. They must guard against any kind of 
atrocities going forward of those elements. And they have to 
be, most importantly, inclusive of the Sunnis and the Kurds. 
And I think that is the biggest piece in this equation. And 
when that is done, I think you see the Sunnis coming into the 
government a bit more and balancing things out.
    So I--you know, I was in Iraq. I was a commander of Iraq 
when that IRAM attack occurred. I was the first senior officer 
on the scene there to--you know, after that attack and worked 
with Colonel Gainey who was then Lieutenant Colonel Gainey. Now 
he is 0-6 [Colonel] Gainey. But some tremendous 1st [Infantry] 
Division soldiers there, great--great courage and great 
discipline.
    But clearly I share your concern. We are going to do 
everything we can to encourage the Iraqi Government to stay 
focused on this, to be inclusive of the Sunnis and the Kurds. 
And I think, if they do that, I think this comes out in a 
better place.
    Mr. Nugent. Let me ask you this: Are we in a position 
within Iraq to have a good handle on regards to what the 
Iranian forces are doing in regards to the Shias within the 
country? Do we have a good handle on that or is that kind of we 
don't know for sure?
    General Austin. Sir, we do not coordinate with the Iranians 
or--you know, I mean, there is no communication between us and 
them.
    Mr. Nugent. Well I understand.
    General Austin. So absolute knowledge of what their intent 
is--is not always there. But, clearly, we have very good 
intelligence services and we have good overhead imagery and 
those types of things. So, you know, the activity in Tikrit was 
no surprise. You know, I saw this coming many days leading up 
to this. It is a logical progression of what they have been 
doing in the east of the country, but we don't coordinate with 
them.
    Mr. Nugent. I appreciate that.
    And lastly a question on the AUMF. I think that, you know, 
you hear--I mean, there is a lot of discussion obviously. But--
and we are worried about strategy. Strategy really needs to be 
larger than just ISIS. I mean, it really is. And I know the 
President doesn't want to go there, but it is radical extremism 
in Islam across the globe that is affecting us and our friends 
across the globe. And so I am worried, with AUMF, if it is 
just--and ISIS, does that really--is that really the strategy? 
I mean that is part of the strategy, but is that really where 
we need to be? Because you see it firsthand across the globe. 
And I know that all the combatant commands talk about it, I am 
sure.
    Secretary Wormuth. Why don't I take a crack at this quickly 
and then have General Austin pile on.
    The AUMF proposal, first of all, as I am sure you are 
aware, doesn't have a geographic limitation, and that was very 
deliberate to address exactly the kinds of concerns that you 
have. Similarly, there is the associated forces, which is 
designed to give us some breadth and discretion as to who we go 
after.
    Mr. Nugent. Okay.
    Thank you, Mr. Chairman.
    Sorry I ran out of time.
    The Chairman. Thank you.
    Mr. O'Rourke.
    Mr. O'Rourke. Thank you, Mr. Chairman.
    Ms. Wormuth, General Austin said that ISIS could be 
defeated without using U.S. ground troops. I am assuming--and, 
General Austin, you alluded to this--that would be primarily 
through the use of Iraqi ground troops. Are there any other 
partners who have committed to joining those Iraqi ground 
troops to defeat ISIS in Iraq?
    Secretary Wormuth. Congressman, first of all, we have a 
number of the coalition partners who are participating with us 
in the air strike campaign.
    Mr. O'Rourke. I was speaking of ground troops, forces on 
the ground. So please answer that question.
    Secretary Wormuth. As General Austin has indicated, this is 
fundamentally a campaign that is being led by the Government of 
Iraq and any offer to have ground troops from another country 
come in would have to be accepted by the Iraqi Government. So 
those----
    Mr. O'Rourke. Is the answer that there are no other forces 
than Iraq----
    Secretary Wormuth. Right now, we only have advisors on the 
ground.
    Mr. O'Rourke. You said that part of our policy going 
forward would be to train and equip and advise those Iraqi 
ground forces. How much do we spend doing that between 2003 and 
2013?
    Secretary Wormuth. Sir, I don't have an exact number off 
the top of my head, but I imagine it was many billions of 
dollars.
    Mr. O'Rourke. In the tens of billions of dollars.
    And you also mentioned that we are going to use a whole-of-
government approach. We are going to try to get the larger 
society together to find solutions. I am not sure that that 
affords us enough clarity to know exactly how this is going to 
be different than it was last time, never mind the increasing 
difficulty and complexity of Syria. We are just talking about 
Iraq right now.
    Can you put those concerns to rest and tell us whether 
there is a plan to enlist other countries' ground military 
forces or if, in fact, you will be coming back to us if the 
Iraqi ground forces are insufficient to defeat ISIS to ask us 
to add additional U.S. ground forces to the mix?
    Secretary Wormuth. Congressman, at this time, you know, the 
AUMF does not envision--the proposal that this administration 
put forward doesn't envision large--it doesn't envision 
employment of large ground combat formations. So that is what 
we are asking for now.
    In terms of the broader approach, I think fundamentally 
something that is different between today and in the past 
decade is we have much more of a partner in the Iraqi 
Government. You know, Prime Minister Abadi wants us and wants 
the broader coalition there to help him.
    Mr. O'Rourke. How long is his term in office?
    Secretary Wormuth. I don't know off the top of my head.
    Mr. O'Rourke. You will not be able to predict his 
successor. Would you agree?
    Secretary Wormuth. No. That is true. But I am sure we will 
work to give the Iraqi Government as much advice as we can 
about the kinds of leader that they would need to succeed him 
whenever that happens.
    Mr. O'Rourke. Is the administration taking seriously 
proposals to rethink Iraq as a state, to rethink our partners 
in Iraq, like the Kurds who have proven to be our only reliable 
allies on the ground in the fight against ISIS to ensure that 
they have greater autonomy to maybe look at the fact that Syria 
and Iraq, to a degree, have arbitrary lines set up a hundred 
years ago that don't seem to be working for the peoples in 
those states and only seem to hold together when you have a 
brutal, repressive dictator, and the experiment in democracy so 
far in Iraq has been an abject failure? I don't know that I 
have heard from the administration and from you some larger 
strategy about how we are approaching problems there, outside 
of a military solution to the immediate threat of ISIS? Would 
you care to comment on any of that?
    Secretary Wormuth. Certainly. Sorry.
    Fundamentally, our approach is based on a federal 
government in Baghdad. We believe that we have better prospects 
for success, both in terms of sustaining Iraq as a country, but 
also in terms of defeating ISIL, which is one of our 
fundamental concerns, doing that through a single Iraqi state 
as opposed to a partition solution, for example, you know, 
which has been discussed and was certainly discussed in years 
past.
    So we are fundamentally taking the approach that we need to 
provide support through Baghdad to the Peshmerga, for example, 
who have been phenomenal partners and have been incredibly 
effective on the ground with the Sunni tribe elements, bringing 
them inside to get them into the fight.
    But right now, our approach is based on a federal Iraq.
    Mr. O'Rourke. Could you--it is not outlined in the AUMF 
proposal from the President. Could you define ``victory''?
    Secretary Wormuth. Certainly. I think victory is defined as 
when ISIL is no longer a threat to Iraq, to its existence, to 
our partners and allies in the region, and to the United 
States. And to get to that, I think, will take some time.
    Mr. O'Rourke. So as long as ISIL is seen as a threat to 
ourselves or any of our partners around the world, we have not 
won?
    Secretary Wormuth. I think that is fair.
    Mr. O'Rourke. Okay. Thank you.
    Thank you Mr. Chairman.
    The Chairman. Dr. Wenstrup.
    Dr. Wenstrup. Thank you, Mr. Chairman. And thank you both 
for being here today to take our questions and inform us on 
many things.
    My first question is: How many nations are considered part 
of the coalition of this fight in Iraq today?
    Secretary Wormuth. Sir, we have 60 countries with us, I 
believe, currently in the operation. And somewhere between a 
dozen and 15 are with us in the air strike campaign.
    Dr. Wenstrup. Okay. Who would you say are the top 5, maybe 
10 contributors? Because 60 is a big number, and I don't know 
if that means somebody is donating a box of pens or really 
being engaged? So who would you say are the top contributors to 
this effort?
    Secretary Wormuth. I don't think I would want to get into a 
list of top contributors because different countries are 
contributing in different ways. As I said, we have about, you 
know, 12 to 15 who are very engaged in the military part of the 
campaign, whether in the air strikes or, also, in terms of 
contributing trainers or helping with the advise and assist 
mission.
    But we also have countries that are working with us very 
closely on things like the counter-messaging campaign. So, for 
example, Qatar has been very focused on that. We also have 
countries that are very involved with us, across the whole 
coalition, on trying to address the counter-financing campaign. 
So really different countries are taking their particular 
strengths and applying them where they make the most sense.
    Dr. Wenstrup. And is it a good mix, say, of our traditional 
allies, like our NATO allies and Middle Eastern allies?
    Secretary Wormuth. Yes. I believe so. We have wide 
representation from NATO as well as from countries in the 
region.
    Dr. Wenstrup. Okay. Thank you.
    Yeah.
    General Austin. If I could add to that. You know, I--you 
recall back on the 23rd of September when we began flying 
missions into Syria, that night we had five Sunni Arab-led 
nations that flew with us on that attack. And that was really 
remarkable. And I think it speaks to the conviction of the 
folks in the region to really want to stand up and deal with 
this very horrible entity, ISIL.
    And for the most part, they have stayed with us and they 
are still flying, and I think that speaks volumes in and of 
itself as well. And there--as Ms. Wormuth said, there are a 
number of countries that are contributing in various ways from 
everything from helping the counter--the ideology to providing 
kinetic capability.
    Dr. Wenstrup. Thank you.
    I somewhat envision that we could have basically two 
coalitions, if you will. Because I think it would help the Arab 
nations to have their own coalition and not appear subservient 
to us and to our coalition, but that we are working together. 
And I think if we had that posture and that is what the world 
saw, it would help those nations engage better and serve us all 
a little bit better and coordinate on command and control.
    Let me ask you one question as it goes to the AUMF, and I 
am really not trying to be flippant about this. But as a 
commander especially, I just don't--I would--maybe finish this 
sentence for me. You know, how does--finish this sentence: 
Publicly stating that we won't use ground forces or large 
brigades is a good idea because?
    General Austin. Sir, how about if I take another approach 
and give you my thoughts on----
    Dr. Wenstrup. With all due respect, I thought you might say 
that, sir. Go ahead.
    General Austin [continuing]. Present commander.
    Dr. Wenstrup. Go ahead.
    General Austin. So rest assured that I am going to ask for 
whatever I need to accomplish the mission as a commander. And, 
you know, I think we should--we should focus our efforts by 
providing good, clear mission statements and objectives. But as 
a commander on the ground or commander of the region--in the 
region, you expect for me to ask for what it is I need to be 
successful, and so you can count on me always doing that.
    Dr. Wenstrup. I appreciate that. And what I don't want to 
do is ever tie your hands on that. I think it is great if we 
can use other forces, but at the same time, I would not want to 
tie your hands and put you in that position.
    Thank you very much. I do appreciate it.
    I yield back.
    The Chairman. Ms. Gabbard.
    Ms. Gabbard. Thank you very much, Mr. Chairman.
    Thank you both for being here.
    Ms. Wormuth, following up on a statement that you made a 
few minutes ago, why is it the administration's position that a 
single federal Iraqi state is necessary to defeating ISIS when 
the reality is that it is this single federal Shia-led, 
Iranian-influenced central government in Baghdad that has 
oppressed the Sunni people, created the oxygen for ISIS to come 
in and take advantage where the Sunnis have been forced to look 
in that direction in order to escape the oppression and 
persecution of this Shia-led government, and that this is the 
main cause for ISIS growing in its presence and strength in 
Iraq today?
    Secretary Wormuth. Thank you, Congresswoman, for the 
question.
    I think what I would say is, to date, that the previous 
government in Iraq, under Maliki, was very problematic and did 
create many of, I think, the characteristics or the dynamics 
that you are speaking of on the ground.
    Ms. Gabbard. So understanding that, how can the 
administration place its hopes on the success of this on an 
individual person, in this new President when you have a 
parliament to deal with, you have Shia militias who are on the 
ground operating, sometimes in alliance, sometimes on their 
own, and you have the Iranian Revolutionary Guard on the 
ground?
    Secretary Wormuth. First, I would say that I don't think we 
are putting our confidence in a single person. Certainly, I 
think, you know, we think Prime Minister Abadi is a much more 
promising partner than what we had in Maliki, but we also are 
working with his entire government. And he has taken some steps 
that I think are indicative of his commitment personally but 
also more broadly of his government to try to take a more 
inclusive approach, things like signing the oil deal with the 
Kurds, things like submitting the national guard legislation to 
the Council of Representatives.
    And while, you know, I would not dispute at all that it is 
a very difficult political environment there and it is going to 
be very challenging to help the Abadi administration continue 
to have a more inclusive approach, we think that that is a more 
promising pathway than seeing the country break apart into 
divisions where, you know, a Kurdistan in the north, a 
Shiastan, a Sunnistan, as, you know, some people in the think 
tank community have talked about, those would only harden all 
of the divisions, I think, that we have seen that have created 
many of the complexities. And an approach that tries to bring 
those together, we believe, is a more promising approach, 
without underestimating how difficult that will be.
    Ms. Gabbard. To follow up, General Austin, on a previous 
comment that you made to this point about the necessity of, I 
think specifically you said the inclusion of Sunnis and Kurds 
is essential, and that the government must be pressured to do 
that.
    And while there have been some steps and some rhetoric in 
that direction, really what it comes right down to, there is 
very little evidence that that is happening, where we see the 
right rhetoric but still on the ground we are not seeing the 
Kurds getting the heavy weaponry and the arms that they need, 
and they have been our most dependable ground force on the 
ground.
    We have the Sunnis who are coming here to Washington saying 
we are not getting what we need from this central government in 
Iraq and this is not just something long term; it is relevant 
now with this attack in Tikrit. So I am wondering specifically 
if you can address, what is the plan to ensure that the Sunni 
stronghold, like Tikrit and Mosul, have a plan or an agreement 
in place for the Sunnis to be in charge of security and 
governance for these places once the attack is successful and 
ISIS is driven out?
    General Austin. Thank you, Congresswoman.
    I think the plan is we have to continue to engage and 
influence the Iraqi Government. And you asked why this is 
important, why we want to continue to do this. Iraq is an 
important country. It has got borders with allies that are key 
to us: Jordan, Saudi Arabia, Kuwait. And what we are doing is 
working to counter an evil that we have not seen before: ISIL. 
And I think unless we help in this endeavor, we can look for 
this thing to spread over into the neighboring countries. And, 
again, the goal of this enemy is to establish a caliphate to 
control more turf.
    So I think you are right, Congresswoman. I think we have to 
do everything in our power to make sure we continue to engage 
the Iraqi Government and make sure----
    Ms. Gabbard. Sorry, General Austin, my time is about to run 
out.
    Specifically with Tikrit and Mosul, is there a plan in 
place for the Sunnis to have governance over security on these 
towns post-attack?
    General Austin. Well, the Iraqi Government has got to put 
such a plan into action, and that is the intent, I am sure. But 
in terms of specifics of the plan to do that, at this point, I 
could not lay that out for you. But that must be the way ahead 
so----
    Ms. Gabbard. I agree.
    Thanks, Mr. Chairman.
    The Chairman. Ms. Stefanik.
    Ms. Stefanik. Thank you, Mr. Chairman.
    And thank you to both of the witnesses here today.
    We have spoken a lot about Iraq, Iran, and I want to turn 
toward Syria.
    Ms. Wormuth, what is the U.S. policy toward the Assad 
regime? And the reason I am asking this question is, I believe 
that the brutality of the Assad regime has contributed greatly 
to the ability for ISIS to rise and gain strongholds in Syria.
    Secretary Wormuth. Thank you, Congresswoman, for the 
question.
    Our policy towards the Assad regime specifically is that 
Assad has completely lost his legitimacy and his legitimacy to 
govern. He has created a situation where there is tremendous 
instability in his country. He is not really governing much of 
his country. There have been over 200,000 casualties, I 
believe, to date. And what we have to do, our view, is that 
there isn't a strictly military solution to that problem. What 
we need to do is to find a political settlement that would have 
a transition where Assad leaves the government.
    And in terms of the ISIL challenge in Syria, what we are 
trying to do is develop a partner on the ground. We obviously 
don't have the same kind of partner on the ground that we have 
in Iraq, but we believe to be able to push ISIL out in Syria, 
we need to build that. And that is what our Department's train 
and equip program is designed to do.
    Ms. Stefanik. So do you agree with me when I state that the 
rise of ISIS in Syria is related to the brutality of the Assad 
regime in providing the circumstances that ISIS has been able 
to recruit supporters?
    Secretary Wormuth. I would say that the tremendous 
instability in Syria has certainly been fertile ground for ISIL 
to spread.
    Ms. Stefanik. And my other question is, so just to delve 
further on our policy towards Syria, is it that we oppose the 
regime in principle but have a policy of taking no actions that 
would harm the regime's survival?
    Secretary Wormuth. Congresswoman, I think, again, our view 
is that fundamentally what we need to do is pursue a diplomatic 
and political solution that sees Assad leaving that government; 
that militarily there isn't a solution.
    You know, I wouldn't say we are taking no action. We have 
an extensive humanitarian assistance program underway to try to 
help support the Syrian population. We have worked with 
neighbors in the region like Turkey and Jordan and others to 
try to enhance their security as they deal with all of the 
refugee flows, but ultimately, we need to find a diplomatic 
solution.
    Ms. Stefanik. I believe, Ms. Wormuth, with all due respect, 
that the administration's lack of leadership in dealing with 
the Assad regime and having a coherent Syria policy has led us 
to where we are today.
    Thank you for representing the views, but I fundamentally 
disagree.
    I yield back.
    The Chairman. Thank the gentlelady.
    Mr. Moulton.
    Mr. Moulton. Thank you, Mr. Chairman.
    And General Austin, thank you very much for your service.
    And Ms. Wormuth, thank you for your service as well.
    Ms. Wormuth, you said earlier that Maliki sectarian 
approach to governing is how we got here, and there are a lot 
of nodding heads around the room. What are we doing in our plan 
going forward to ensure that that doesn't happen again?
    Secretary Wormuth. That is a great question, Congressman. 
You know, fundamentally, one of the lines of effort in our 
counter-ISIL campaign is governance and it is about helping the 
Iraqis, again, develop a stronger government that takes a very 
inclusive approach to how they are trying to bring everyone 
together, bring in the Kurds, bring in the Sunnis, bring in 
other religious minorities, for example.
    You know, and fundamentally, this is primarily the work of 
the State Department, but it is a major emphasis in terms of 
what we are trying to do. We don't believe--without that focus 
and without that focus on building a stronger, inclusive 
government in Baghdad; we do not believe that the military 
campaign on its own will succeed.
    Mr. Moulton. So can you just name one thing specifically 
that you are doing differently from, say, the period of 2010 to 
2013? When I served in Iraq last in 2008, we had a very heavy 
hand on the Iraqi Government. We were very involved in their 
affairs. We made sure to keep Prime Minister Maliki within the 
lanes so that he wouldn't become too sectarian. I wish we had a 
prime minister that didn't require that kind of guidance, but 
we did and we provided it. But it seems that that was lost. So 
what specifically are we doing differently this time around?
    Secretary Wormuth. Well, Congressman, I think one thing we 
are doing differently--I mean, I think I would say 
fundamentally, ultimately part of why things did not succeed in 
Iraq the first time is because when the United States left--and 
that was because, again, Maliki, as you know well, did not want 
the United States to stay and was not willing to submit the 
kinds of agreements to the Council of Representatives--all of 
the things, many of the things that we worked with them on 
through those many years started to dissipate when we left. And 
I think fundamentally one of the lessons from that this time is 
that we have to partner with the Iraqis, but they have to want 
it for themselves, at least as much as we do.
    And so we are now, I think, trying to provide advice to 
them, political advice, governance advice, military advice to 
help them build up their institutions, but fundamentally 
emphasize that they are a sovereign country and they have to be 
in the lead. And I think that is going to be challenging, but 
unless we want to stay there for an indeterminate period, they 
have to be able to do what needs to be done on their own.
    Mr. Moulton. What I want to make sure is, is not just that 
we don't have to stay there for an indeterminate period but 
that we don't have to come back. And I will tell you, as 
someone who fought during the surge, it is not very comforting 
to hear that we are just going to leave that up to the Iraqis, 
that ultimately we are just going to say pass it off to them 
and maybe they will succeed and maybe they won't and we will be 
right back.
    Secretary Wormuth. Well, I think what I would say, 
Congressman, is we are not going to leave them abruptly. You 
know, we are working with them in partnership in a whole range 
of ways, diplomatic, political, economic, military, trying to 
help them do what needs to be done across the whole range of 
challenges that they face. And we will continue to work with 
them. Again, this campaign against ISIL we don't expect to end 
anytime soon.
    Mr. Moulton. General Austin, could you comment on this as 
well. I mean, you were there during part of this period. What 
specifically do you see being done differently this time around 
to ensure we don't have to again see our military effort go in 
vain and then have to come back again 3 or 4 years down the 
road?
    General Austin. Well, we certainly have learned some 
lessons from the past in terms of the requirement to remain 
engaged with the Iraqi leadership.
    But I think we have to use more than just the influence 
that the military brings. We have to use, you know, economic 
influence, international pressure, and a host of other things 
to put pressure on this government----
    Mr. Moulton. And are we doing that?
    General Austin. I think so. I think we are increasing, 
but----
    Mr. Moulton. So if you think so, it just doesn't give me a 
lot of confidence that this plan is actually being executed.
    General Austin. Understand, sir. I think--when I say that, 
I say that, you know, this is a young government and we are 
using every lever in the inventory to influence it. And----
    Mr. Moulton. General, with all due respect, I was in 
Baghdad 2 weeks ago, and that was not the story I heard on the 
ground which was that we were using all these levers. I mean, 
Iran has a very active effort to influence the Iraqi 
Government. It doesn't seem like ours even is a shadow of that.
    General Austin. I can't speak to how much--I can say that 
Iran's influence is growing in Iraq, but how much they have, I 
can't speak to that. But I can tell you that we recognize the 
need to use everything that we can to influence and shape 
activities, and we will continue to stay after this, sir.
    Mr. Moulton. If I may ask just one final question. You have 
talked about how important a diplomatic solution is in Syria. 
Who is our political partner there?
    Secretary Wormuth. Well, that is one of the many challenges 
we have in Syria, is that the Syrian opposition council is the 
primary, as I am sure you know, opposition entity, but it has 
been fractured over time. And so we are working--part of what 
the State Department is doing----
    Mr. Moulton. Do we have a political partner?
    Secretary Wormuth. Well, we have--again, we are working 
with the opposition council. We also are obviously working with 
other countries who also believe that what is needed is a 
transition for Assad out of the government. But we are 
certainly--we don't have a partner in, in the Syrian 
Government, but we are working to build up the opposition 
council.
    Mr. Moulton. Thank you.
    Thank you, Mr. Chairman.
    The Chairman. Thank you. Very important questions.
    Ms. Hartzler.
    Mrs. Hartzler. Thank you, Mr. Chairman.
    Thank you so much for being here today. Very important 
questions and topics. And one that I think hasn't been touched 
on, I am very concerned about, is the basically eradication of 
Christians in Iraq. At one time, over 1.5 million Christians 
there. Now we estimate between, what, 200 and 300,000 perhaps. 
Maybe you have some insights on the numbers there. But 
certainly that is the birthplace of many of famous Christian 
historic sites.
    And the reports last week of ISIL burning hundreds or 
thousands of years old documents and destroying religious sites 
is certainly very, very disturbing.
    So first, I was wondering if you could give me an update on 
the situation for Christians there, both in their persons and 
their safety, how many are still there, what their situation 
is, their well-being, but then also give me an update on the 
ISIL strategy and how many historic sites have been destroyed?
    Secretary Wormuth. Congresswoman, what I would like to do 
is to give you a much more specific laydown of some of the 
questions that you are asking for the record, if that would be 
all right. But I think it is fair to say that, you know, we 
very much share your concern about the status of Christians in 
Iraq, but also other religious minorities, obviously.
    [The information referred to can be found in the Appendix 
on page 103.]
    Secretary Wormuth. ISIL has persecuted and prosecuted their 
barbaric approaches on Christians all over the country, and we 
are very disturbed about that, and it is one of the many 
reasons we are trying to defeat them in Iraq. I think something 
we have emphasized particularly again with the Abadi government 
is that as these military operations take place, it is very 
important that the ISF forces and the popular mobilization 
militias not conduct atrocities as they go into these towns.
    And Prime Minister Abadi was very vocal this morning saying 
that he has the responsibility and the Iraqi security forces 
have the responsibility to protect all of Iraqi citizens. But 
we share your concerns, and I would certainly like to get you a 
more detailed report for the record. But General Austin may 
have more specifics to share.
    General Austin. I agree. We will take that for the record, 
Ms. Wormuth.
    [The information referred to can be found in the Appendix 
on page 103.]
    General Austin. I would just say, Congresswoman, that 
having served in Iraq three times and now the Central Command 
commander, I have spent a lot of time with senior leaders, 
senior Iraqi leaders, and work with them on issues involving 
Christian and other religious minorities. And I can tell you 
that they value--they treasure the Christian population as a 
part of their community, their environment. And so when we saw 
Christians leaving Baghdad, for example, several years ago, 
they were concerned about that.
    So they want this population to be a part of their 
environment, and I think that we will have to continue to work 
with the government to ensure that as we go forward that they 
are doing the right things to protect these minorities.
    Mrs. Hartzler. When can I expect a response back on--for 
the record?
    Secretary Wormuth. I am sure we can get you something by 
the end of the week, ma'am.
    Mrs. Hartzler. Okay. That would be great.
    Now in the Nineveh, there is a lot of Christians there. And 
I read an article last week how an independent group has come 
in to help train some of the people who live there, how to 
defend their own villages, you know, independent of us.
    But in the NDAA [National Defense Authorization Act], we 
put over $1 billion in there to help train local forces against 
ISIL. Are we targeting and helping to specifically train some 
Iraqi Christians? Are they receiving any of the funds that we 
designated for this?
    Secretary Wormuth. As of right now, Congresswoman, the 
funds for the Iraqi train and equip program are largely being 
spent on training the nine Iraqi Army brigades and the three 
Peshmerga brigades. I think about almost $19 million of that 
$1.3 billion is going to equip Sunni tribal elements.
    But to my knowledge, that money is not being spent on 
training other groups outside of the ISF and the Sunni tribes.
    Mrs. Hartzler. Do you think that might be a good idea since 
ISIL is trying to exterminate them?
    Secretary Wormuth. Well, Congresswoman, there are, again, I 
think what we have been trying to do is work the train and 
equip program through the Iraqi Government. We could certainly 
talk with them.
    I know they--General Austin may have more information about 
some of these other training programs that the Iraqi Government 
is doing itself of more local populations.
    General Austin. That has been our approach in the past, and 
certainly it will be our approach going forward. I think this 
is best done in working with the Iraqi Government because at 
the end of the day, as we transition, they are going to have to 
be the folks that really continue to take care of these 
elements.
    Mrs. Hartzler. Well, I am encouraged to hear that you think 
the Iraqi Government is concerned as well and cares about them. 
And I would ask you to visit with them specifically about this, 
ask them to reach out to these groups and specifically try to 
train them, because it would just be a travesty of historic 
proportions if this area has no Christians where so many of 
them have been there for thousands of years.
    Thank you.
    The Chairman. Thank you.
    Ms. McSally.
    Ms. McSally. Thank you, Mr. Chairman.
    General Austin, I want to switch to the topic of combat 
search and rescue [CSAR]. And I was retired colonel A-10 pilot 
but also ran the Joint Search and Rescue Center for CENTCOM 
Forward for JTF-SWA [Joint Task Force-Southwest Asia] in the 
early days of the Afghanistan operations.
    And my concern is, with our operations in Iraq and Syria, I 
have been hearing from some colleagues that we have limitations 
on the combat search and rescue. The Jordanian pilot, as you 
know, has strategic implications with how he was murdered in a 
horrific way.
    And we have got our pilots flying single-engine F-16s into 
Iraq and Syria today. And in order to make sure that if they 
have to eject, even if they are not shot down, that we have 
somebody overhead right away, on-scene commander and then 
somebody else right behind them to immediately locate, 
communicate, and protect them, shoot anything that moves, that 
comes anywhere near them, in that geography you can't hide. It 
takes a very robust capability of ground-alert assets, 
airborne-alert assets.
    The A-10, which I flew, is the only one that provides a 
rescue mission commander, SANDY One and SANDY Two, to be able 
to get to them and then the helicopter should go in and get 
them. And we have got to snatch them right away, as you know, 
because if they get picked up then it is disastrous 
consequences, not just for them and their family but 
strategically for our country. Can you imagine if we had now an 
American pilot that is the next one captured?
    So I know you know this is a challenge, but my question is, 
and I am asking for a classified briefing, what was the CSAR 
posture when we first started flying sorties there and 
specifically when the Jordanian pilot ejected, and has it 
changed since then? And are you limited at all from the 
arbitrary 3,100-person boots-on-the-ground cap by this 
administration to make sure that we have a posture that 
provides what I just described; that we have a covenant with 
those that are flying sorties are on the ground; that we are 
going to go get them, that we are going to rescue them.
    I have concerns from talking to my colleagues in the 
military that there is a pretty damning after-action report 
from the Jordanian pilot situation, and I am deeply concerned 
that we don't have the combat search and rescue capability.
    Also, if you only have 12 A-10s over there and they are the 
only ones that can do the SANDY mission plus close air support, 
why don't we bring more over? What are your limitations? What 
can we do moving forward?
    General Austin. Let me assure you, Congresswoman, that I 
won't put one pilot in the air if I don't feel like I have the 
adequate means to recover those pilots. In working with my 
senior airmen and my air component, I think they have done a 
masterful job of ensuring that we have adequate coverage in a 
number of places to address our CSAR issues.
    As you know, we have forward-deployed CSAR capabilities 
currently, and we also are looking to perhaps put CSAR 
capability in other places, like Turkey, and we continue to 
work that.
    So I am confident that we have the adequate means to take 
care of our pilots, and if I feel that the risk has increased 
to the point where I need to, we will put CSAR assets in the 
air while the mission is being conducted. And we have done that 
and we will continue to do that.
    Ms. McSally. So you feel that there is no limitations right 
now? You have this CSAR posture that you need in order to make 
sure that we can rescue anybody who has to eject?
    General Austin. I think we have adequate CSAR capability. 
In this business, as you know, there is no such thing as 
enough, and so if I can get more, I will get more.
    And if I can position assets in Turkey, and we believe we 
can, we will move forward and do that.
    Ms. McSally. Okay. And is the 3,100 boots-on-the-ground 
limitation impacting at all bringing in a more robust CSAR 
capability forward-deployed to make sure that we can be true to 
that covenant?
    General Austin. I think we have adequate capability to take 
care of our troops with what we have on the ground and what we 
can potentially put into other places. I think that will 
increase that capability.
    Ms. McSally. Okay. Great.
    Again, for the record, I would like a very detailed 
classified briefing on the CSAR posture and that after-action 
report on the Jordanian pilot. And I look forward to working 
with your staff to further discuss this important issue.
    General Austin. We look forward to providing you that, 
ma'am. And by the way, in response to your point that you made 
earlier about a damning report, after-action report, I know of 
no such report.
    Ms. McSally. Okay. Great. I look forward to following up 
with you, then.
    Thank you.
    I yield back. Thank you, Mr. Chairman.
    The Chairman. Thank you.
    Let me touch on a couple things that we haven't quite 
gotten to yet today: One is Yemen. General, for several years 
now we have heard that the most serious threat against our 
homeland, as far as terrorism goes, has emanated from Yemen, 
with Al Qaeda in the Arabian Peninsula [AQAP]. How do you 
evaluate that threat today, and what effect does the overthrow 
of government there have on our counterterrorism operations to 
diminish that threat?
    General Austin. I will take the first stab at this, sir, 
and if Ms. Wormuth wants to contribute then certainly, with 
your permission, I will ask her to do so.
    Al Qaeda in the Arabian Peninsula, we have always said, is 
a very significant threat or a serious threat. We know that 
there are folks in that organization that have tried to export 
violence to our homeland, and so we remain focused on this 
extremist organization and we feel that there is a need to keep 
pressure on it.
    We have found that over the years, not only in Yemen but in 
other places around the region and across the globe, that the 
best way to counter these types of threats is to limit the 
amount of ungoverned spaces that they have available to operate 
out of. And so the more that we can do to help train and equip 
and advise host nations to control their own sovereign spaces, 
the less of an opportunity that there is for these 
organizations to export mischief to other places.
    Also, their ability to counter--host nations' ability to 
counter these types of threats, I think, is also important. So 
what we have done over the years is when we had a viable 
government in place that was willing to work with us, we have 
worked with them to increase their capability so that they can 
do more to control their own sovereign spaces. And that 
certainly has helped us in countering some of the extremist 
organizations.
    In addition to that, you also obviously have to keep 
pressure on the organization, making sure that you understand 
what is going on with the organization and that where possible, 
you bring, you know, key operatives to justice when that 
opportunity is presented.
    The Chairman. Yeah, but General, let me go back and try 
again. Today, what is the threat like from AQAP in Yemen 
against our homeland? Is it still serious?
    And secondly, what effect has the overthrow of the 
government had on our ability to diminish that threat?
    Secretary Wormuth. Chairman, if you don't mind, I am happy 
to----
    The Chairman. Well, I think it is really a military 
question not a policy question.
    General Austin. Yeah. So there is still a significant 
threat, sir, and so without the--and I apologize for not 
directly answering your question. But without the government 
fully operational, that makes it more difficult to do the 
things that I described earlier, to keep pressure on this 
organization, and so the threat will increase over time.
    The Chairman. Okay. Thank you.
    They have called votes, so I am trying to get to several 
things and I don't mean to cut you short. I will get to Mrs. 
Walorski in just a second but I want to cover a couple things.
    Ms. Wormuth, I was with President Ghani a few weeks ago 
when he said that he would like for us not to reduce the number 
of troops we have in Afghanistan for the remainder of the year. 
We are going to have General Campbell here tomorrow. But the 
question I have got is where is that request in the 
administration, and when is it going to be answered?
    Secretary Wormuth. Thank you, Chairman.
    We are very much aware, obviously, of that request. 
President Ghani has asked us to consider giving him more--or he 
has asked us to perhaps have some flexibility in terms of the 
glide slope of the approach, and we are actively discussing 
that right now. And I think it will very much be a topic when 
the President comes here later this month.
    The Chairman. So you think it is going to hang at least 
through the end of the month, at least? I am concerned that, on 
the current trajectory, we are reducing the number of people 
throughout the country, we are reducing our intelligence-
gathering capability throughout the country, we are reducing a 
variety of capabilities we have throughout the country, and 
meanwhile we are studying it.
    Secretary Wormuth. Congressman--or excuse me, Chairman----
    The Chairman. It doesn't matter. Mac is fine.
    Secretary Wormuth. Well, I certainly wouldn't go that far.
    We are taking President Ghani's request very seriously, and 
it is being discussed at the highest level. The President has 
not made a decision yet, but I think we are very aware of the 
importance of this request and want to do what we can to make 
the most of the next 2 years.
    So, again, I think that will be a discussion when the 
President gets here, but it is being looked at a very high 
level and in great detail.
    The Chairman. Well, as you can tell, I am frustrated at 
what we are losing in the meantime.
    Let me ask one more thing and then I will yield to Mrs. 
Walorski.
    General, last week in the Senate, General Allen, who is now 
the special Presidential envoy, said that ``enduring'' in the 
administration's AUMF proposal could mean 2 weeks or it could 
mean 2 years.
    And then Secretary [of State] Kerry also testified in the 
Senate that ``enduring'' could mean weeks and weeks but then he 
came over to the House [of Representatives], and he said, well, 
it could mean months, not years.
    So if this passed as submitted, you are the combatant 
commander responsible for implementing this AUMF, and so my 
question to you is, how long is enduring? Is it two weeks? Two 
months? Two years?
    General Austin. Well, I think it is--you would have to 
evaluate the requirements on a mission-by-mission basis, and I 
would hope that, we could be--you know, when I am given 
objectives and goals and missions that they are specific enough 
for me to lay out how long it will take.
    But in terms of, you know, a mark on the wall of exactly 
how long enduring is, that is ill defined or not defined.
    The Chairman. Well, Mr. Smith and I got a letter from one 
of your predecessors, General Mattis, last week, who basically 
argued that we should not put restrictions as far as the kind 
of capability that we would limit our military commanders from 
using to achieve those objections.
    I heard you tell Mr. Franks a while ago that you thought 
more flexibility was better. I presume that that would be your 
outlook. If you are given a mission, you would just as soon 
have all means necessary--or at your disposal--available to 
carry out that mission?
    General Austin. That is correct, Chairman. And I would ask 
for whatever I thought was necessary to accomplish the mission.
    The Chairman. Okay. Thank you.
    Mrs. Walorski.
    Mrs. Walorski. Thank you, Mr. Chairman.
    General Austin, you have been deployed on several 
operational tours in both Iraq and Afghanistan. What 
limitations have other AUMFs placed on your missions and 
operational abilities, number one; number two, if in your 
operational experience you have been most effective as 
accomplishing your mission without AUMF limitations, why would 
this AUMF provide you with the quote, unquote, ``flexibility'' 
you need to accomplish this mission?
    General Austin. Well, you know, certainly, I have been 
involved in, over the last decade-plus, in fighting in 
Afghanistan and Iraq. And we have had what we needed to have to 
accomplish our goals and objectives in both instances.
    In terms of any limitations that this current--the proposed 
AUMF would place on us, the way it is laid out to--I think we 
will have what we need, we will have the flexibility to address 
the counter-ISIL campaign.
    And so to accomplish what has been given to me in this 
current mission set, I think we have the flexibility to get the 
work done.
    Mrs. Walorski. And just reflecting again on what the 
chairman said, but, you know, I was heavily impacted last week 
when I read the letter from General Mattis. And--when he talked 
about to the committee last week that they should not set any 
arbitrary guidelines, AUMF should not establish geographic 
limits, AUMF should put the enemy on notice that we will use 
all military capabilities, even if it includes ground forces. 
And we have heard other, just through the news and just through 
talk, other senior military leaders saying the same thing.
    And I have got to believe, with him being your predecessor, 
would you not agree with General Mattis' views, that we simply 
cannot have these kind of ground game rules, number one, 
already established; and number two, we are telling ISIL and 
all interested parties exactly what we are not going to do?
    General Austin. Well General Mattis is a great friend, a 
guy who I respect a lot. And I will tell you that we agree on 
some things; we don't agree on everything. But in this case, 
Congresswoman, my thoughts are the more flexibility that I can 
have, the better it is for me in terms of prosecuting this kind 
of a fight.
    Mrs. Walorski. Wouldn't it be easier to have an AUMF that 
says destroy ISIL, period? Wouldn't that give you unbelievable 
flexibility, unbelievable authority, and send a strong message 
to the other side, to the enemy camp that there is number one 
mission in this country, and all the bounds are off, all the 
rules are off, and you are in charge of a command that can go 
and do what the American people want, which is to destroy ISIL, 
even if they show up in Afghanistan, even if they show up in 
other places where we already know there is connections and 
networks being made?
    General Austin. Well, again, the more flexibility I can 
have as a commander----
    Mrs. Walorski. Would you support that kind of AUMF, sir, 
that said destroy ISIL?
    General Austin. I am confident I will never get that kind 
of an AUMF, but I take your point.
    Mrs. Walorski. I appreciate.
    I yield back my time, Mr. Chairman.
    The Chairman. Mr. Coffman, do you have something right 
quick?
    Mr. Coffman. No, Mr. Chairman.
    The Chairman. Okay.
    Thank you, all, for your patience. A vote came just in 
time.
    And so we appreciate both of you and the challenges that 
you face in sorting through a very difficult, messy situation 
in the Central Command area of responsibility.
    Thank you again for being here today, and we will look 
forward to further discussions.
    With that, the hearing stands adjourned.
    [Whereupon, at 1:44 p.m., the committee was adjourned.]
?

      
=======================================================================




                            A P P E N D I X

                             March 3, 2015

=======================================================================


              PREPARED STATEMENTS SUBMITTED FOR THE RECORD

                             March 3, 2015

=======================================================================

      
   [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]   
    
=======================================================================


              WITNESS RESPONSES TO QUESTIONS ASKED DURING

                              THE HEARING

                             March 3, 2015

=======================================================================

      
           RESPONSES TO QUESTIONS SUBMITTED BY MRS. HARTZLER

    Secretary Wormuth. First, we very much share your concern about the 
status of Christians and other minorities in Iraq. We strongly condemn 
ISIL's recent attacks on the ancient city of Nimrud, in Iraq, and on 
Christian villages in northeastern Syria--as well as their continued 
use of barbaric tactics to massacre and enslave innocent people, and 
persecute minority populations. This is among the very reasons we are 
working to defeat ISIL in Iraq. Unfortunately, DOD does not track the 
specific number of Christian tombs, shrines, statues, and other 
religious sites that have been destroyed by ISIL, so we do not have 
more detailed information to share. The State Department and USAID 
[U.S. Agency for International Development] may be able to give you a 
more comprehensive briefing, based on their relationships with NGOs.
    What we do know is, as you suggested, there are an estimated 
300,000-350,000 Christians remaining in Iraq. Prior to 2003, Iraq's 
Christian population was approximately 1.4 million, historically 
concentrated in northeastern Ninewa province, with small populations in 
several urban centers such as Mosul, Baghdad, Erbil, and Kirkuk city. 
Approximately one million Christians left Iraq due to security 
concerns, discrimination, and limited economic opportunities in the 
years following 2003.
    Today, Christians and other religious minorities are 
disproportionately represented among displacement camps in northern 
Iraq due to ISIL's incursion and threats upon their historic 
communities. Most Christians still in Iraq are located in relatively 
secure Kurdish-controlled areas. Nonetheless, Christian communities in 
Iraq remain concerned about their future in the country due to ongoing 
sectarian violence and a lack of economic opportunity.   [See page 31.]
    General Austin. We do not track or have the information to share 
with you concerning the number of Christian tombs, shrines, statues, 
and other religious sites that have been destroyed by ISIL. What we do 
know is that there are an estimated 300,000-350,000 Christians 
remaining in Iraq. Prior to 2003, Iraq's Christian population was 
approximately 1.4 million (of an estimated total population of 26 
million). Historically, Christians were concentrated in northeastern 
Ninewa province, with small populations in several urban centers such 
as Mosul, Baghdad, Erbil, and Kirkuk city. In the years following 2003, 
approximately one million Christians emigrated from Iraq due to 
security concerns, discrimination, and limited economic opportunities. 
Today, most Christians remaining in Iraq are located in relatively 
secure Kurdish-controlled areas of the north. Unfortunately, Christian 
communities in Iraq may still be susceptible to sectarian violence and 
are concerned about a lack of economic opportunity.   [See page 31.]
?

      
=======================================================================


              QUESTIONS SUBMITTED BY MEMBERS POST HEARING

                             March 3, 2015

=======================================================================

      
                   QUESTIONS SUBMITTED BY MR. SHUSTER

    Mr. Shuster. President Obama's proposal for a new Authorization for 
the Use of Military Force ``does not authorize the use of the United 
States Armed Forces in enduring offensive ground combat operations.'' 
Please specifically define ``enduring ground operations.'' Do you 
believe the reference to ``enduring ground operations'' will be clear 
to our commanders on the ground? Since the administration has not yet 
adequately defined ``enduring ground operations,'' which will be 
responsible for determining whether an action violated the stipulation 
against ``enduring ground operations''?
    Secretary Wormuth. The AUMF would not authorize long-term, large-
scale ground combat operations like those the United States conducted 
in Iraq and Afghanistan. It would provide the flexibility to conduct 
ground combat operations in more limited circumstances, such as rescue 
operations involving U.S. or coalition personnel or special operations 
to take military action against Islamic State in Iraq and the Levant 
leadership.
    I do believe that the reference to enduring ground combat 
operations would be clear to our commanders on the ground, and 
certainly to the President and Secretary of Defense initiating any such 
action. Any requirement for U.S. ground combat operations would be 
assessed on a mission-by-mission basis. In light of existing guidance 
limiting the role of U.S. ground forces as described in the reports 
submitted by the President consistent with the War Powers Resolution, 
we do not believe there would be opportunities for the commanders on 
the ground to engage in ``enduring ground operations'' without further 
orders from Washington.
    Mr. Shuster. A number of friendly nations continue to acquire and 
maintain American weapons technology, including systems like the PAC 
GEM-T missile, as an effective and efficient countermeasure to regional 
threats. How can we better leverage our industrial base in this manner 
to support our Middle Eastern allies in their fight against the Islamic 
State of Iraq and the Levant?
    Secretary Wormuth. The Department of Defense (DOD) is working 
closely with the U.S. defense industry and partners in the Middle East 
region to help them build capabilities that facilitate their own 
security and that of the region. In support of this effort, DOD 
maintains close relationships with the defense industry to leverage new 
and existing technologies that meet the unique requirements of partners 
around the world. It is through the increased collaboration and 
dialogue with both industry and partner nations that the Department 
provides cost-effective solutions for greater capability as well as 
partner interoperability with U.S. forces and each other.
    The Department continues to work bilaterally with partners in the 
Middle East to support the development of air and missile defense 
capabilities while also establishing the foundation for increased 
regional collaboration in support of U.S. national security interests. 
The DOD-defense industry partnership has played a vital role in 
developing both bilateral solutions and opportunities for system 
integration in support of these efforts.
    Although missile defense remains a priority in the Middle East 
region, effective counter Islamic State in Iraq and the Levant (C-ISIL) 
operations demand a different set of capabilities. DOD continues to 
work closely with interagency partners and industry to expedite 
delivery of defense articles and services in response to urgent 
requirements of partners engaged in C-ISIL operations.
    Mr. Shuster. The President has placed a 3-year limitation in his 
proposed Authorization for the Use of Military Force. Do you believe 
that the current strategy will defeat the Islamic State of Iraq and the 
Levant (ISIL) in that time window? We have seen a steady decline in 
government stability that expands beyond the Middle East, into Africa 
and elsewhere. Has President Obama, as Commander in Chief, too narrowly 
defined and too marginally addressed extremist threats? Do you 
presently believe there are any other emerging terrorist threats or 
organizations that have the potential to fill the power vacuum that 
would be created by ISIL's defeat?
    General Austin. I believe the strategy that calls for the use of 
indigenous forces supported by a broad coalition to defeat ISIL is the 
right strategy and it will succeed. We are only in month eight of a 36-
month campaign, and the coalition already has made significant progress 
in the fight against ISIL. Specifically, the combined air-ground 
campaign continues to deny the enemy freedom of movement, while 
disrupting their ability to resupply and seize and hold new terrain. 
Overall, I assess that we are about where we said that we would be at 
this point in the campaign. That said, if more time is required, I am 
confident our national leadership will provide the necessary 
authorities to support our continued efforts to defeat ISIL. In the 
meantime, I do believe we should work by, with and through our 
coalition partners to achieve our shared goals and objectives. In the 
end, we want to defeat ISIL, and also take the necessary steps to 
ensure that what we see happening now in Iraq and Syria does not happen 
again in the future.
    The threat posed by a number of violent extremist organizations 
will likely persist after ISIL has been defeated. Certainly al-Qaida 
and/or its affiliates, such as al-Qaida in the Arabian Peninsula (AQAP) 
and al-Qaida in the Land of the Islamic Maghreb (AQIM), present an 
enduring threat to stability and security in the Central region. These 
groups have global ambitions and they aspire to topple ``apostate 
regimes'' and conduct attacks against the West and western interests. 
And so, we must continue to maintain pressure on these groups going 
forward, while also helping our regional partners to effectively 
address the `underlying currents' or the root causes of the instability 
that are at play in that volatile and strategically-important part of 
the world.

                                  [all]
</pre></body></html>
